     EDWARD BYRNE MEMORIAL

JUSTICE ASSISTANCE GRANT PROGRAM 

        GRANTS AWARDED TO 

THE LOUISIANA COMMISSION ON LAW 

           ENFORCEMENT 

     BATON ROUGE, LOUISIANA



     U.S. Department of Justice 

   Office of the Inspector General 

            Audit Division 



    Audit Report GR-40-10-007 

           August 2010

              EDWARD BYRNE MEMORIAL

         JUSTICE ASSISTANCE GRANT PROGRAM 

                 GRANTS AWARDED TO 

   THE LOUISIANA COMMISSION ON LAW ENFORCEMENT

              BATON ROUGE, LOUISIANA


                        EXECUTIVE SUMMARY


       The Office of the Inspector General, Audit Division, has completed an
audit of the Edward Byrne Memorial Justice Assistance Grant Program (JAG),
Grant Numbers 2008-DJ-BX-0026 and 2008-DJ-BX-0751, with a combined
amount of $2,065,509, and the Recovery Act Edward Byrne Memorial Justice
Assistance Grant Program State Solicitation, Grant Number
2009-SU-B9-0023 in the amount of $21,400,860, awarded by the Office of
Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the Louisiana
Commission on Law Enforcement. Between March 2006 and April 2009, OJP
awarded the Louisiana Commission on Law Enforcement (LCLE) six grants
totaling $37,814,307. The LCLE was created as an office of the Louisiana
State Governor in 1969 to engage in comprehensive criminal justice
planning and to distribute federal funds under the Omnibus Crime Control
and Safe Streets Act of 1968.

       The purpose of the JAG Program is to allow states, tribes, and local
governments to support a broad range of activities to prevent and control
crime based on their own local needs and conditions. JAG funds can be used
for state and local initiatives, technical assistance, training, personnel,
equipment, supplies, contractual support, and information systems for
criminal justice for any one or more of the following purpose areas:

  • law enforcement programs;

  • prosecution and court programs;

  • prevention and education programs;

  • corrections and community corrections programs;

  • drug treatment programs;




                                     i    
  • planning, evaluation, and technology improvement programs; and

  • crime victim and witness programs (other than compensation).

Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets, in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      Through Recovery Act JAG funding, the Department of Justice (DOJ)
focused support on all components of the criminal justice system, including
multi-jurisdictional drug and gang task forces; crime prevention and
domestic violence programs; and courts, corrections, treatment, and justice
information sharing initiatives. Recovery Act JAG-funded projects could
address crime by providing services directly to individuals and communities
and by improving the effectiveness and efficiency of criminal justice
systems, processes, and procedures.

Audit Results

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were supported; allowable; and in
accordance with applicable laws, regulations, guidelines, terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) grant requirements; (2) internal control
environment; (3) cash management; (4) program income; (5) grant
expenditures; (6) supplanting; (7) management of subrecipients;
(8) Financial Status Reports (FSR), Progress Reports, and Recovery Act
Reports; and (9) program performance and accomplishments. Indirect
costs, property management, and management of contractors were not
applicable to these grants.




                                      ii
      As shown in Exhibit 1, the LCLE was awarded a total of $37,814,307 to
continue the grant program. However, based on grant activity, we limited
our audit to $23,466,369 in funding awarded under Grant Numbers
2008-DJ-BX-0026, 2008-DJ-BX-0751, and 2009-SU-B9-0023.1

  EXHIBIT 1: 	 EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE 

               GRANT PROGRAM GRANTS AWARDED TO THE 

               LOUISIANA COMMISSION ON LAW ENFORCEMENT 


                                    AWARD            AWARD
          GRANT AWARD             START DATE        END DATE          AWARD AMOUNT
         2006-DJ-BX-0037         10/01/2005        11/14/2010             $3,514,704
         2007-DJ-BX-0094         10/01/2006        09/30/2010              5,277,630
         2008-DJ-BX-0026         10/01/2007        09/30/2011              1,889,749
         2008-DJ-BX-0751         10/01/2007        09/30/2011                175,760
         2009-DJ-BX-0732         10/01/2008        09/30/2012              5,555,604
         2009-SU-B9-0023         03/01/2009        02/28/2013             21,400,860

                                                           Total        $37,814,307
  Source: OJP Grants Management System

     In summary, we found the following.

  	 The LCLE complied with special grant conditions listed in grant award 

     documentation from OJP. 


  	 The LCLE uses financial and grant management systems that appeared
     to provide for separation of duties, transaction traceability, system
     security, and limited access. The LCLE made reasonable plans to
     ensure transparency and accountability with the Recovery Grant
     Number 2009-SU-B9-0023.

  	 The LCLE drew down all grant funds, assigned unique revenue codes,
     and deposited all funds with the Louisiana Department of the Treasury.

  	 The LCLE accounted for and reported program income.

  	 The LCLE generally maintained supporting documentation for staff 

     salary and fringe benefits. The LCLE properly reviewed, authorized, 

     classified, supported, and charged the majority of other sampled 

     transactions to the grants. 



     1
         Our audit objective, scope, and methodology are further discussed in Appendix I.




                                             iii
	 We found no indication that the LCLE supplanted local funds in the use
   of grant funds at the state level.

	 The LCLE developed reasonable plans to monitor and audit
   subrecipients and provided training and technical assistance to the
   subrecipients.

	 The LCLE submitted all of the required financial reports, submitted one
   Annual Progress Report for all open JAG awards, and completed the
   required performance reports for the Recovery Act grant.

	 The LCLE made sub-awards in six of seven purpose areas of the JAG
   Program.

   However, we also found:

	 The Single Audit for Louisiana included significant findings regarding
   subrecipient monitoring.

	 The LCLE reimbursed subrecipients for unsupported expenditures of
   $6,972 for Grant Number 2008-DJ-BX-0026. The LCLE did not follow
   its procedures for awarding sole source awards to a subrecipient.

	 The LCLE staff did not complete 7 of 10 monitoring reports. The
   LCLE’s program and fiscal staff did not coordinate their duties to
   ensure adequate coverage of monitoring reviews and audits.

	 The LCLE completed one Annual Progress Report for all JAG awards
   although separate reports are required. The LCLE did not verify the
   quarterly progress reports submitted by subrecipients to supporting
   documentation. For Grant Number 2009-SU-B9-0023, the LCLE could
   not support all data included in its performance reports.

	 The LCLE did not identify baseline data for each JAG award to measure
   overall program performance and accomplishments.

	 The LCLE did not obtain written documentation from subrecipients that
   had not implemented its program within 60 days of the original start of
   the award period.




                                   iv
     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objective, scope, and
methodology are discussed in Appendix I.




                                    v

                                  TABLE OF CONTENTS


INTRODUCTION ....................................................................... 1

                                                                                       
     Recovery Act .......................................................................2

                                                                                           
     Audit Purpose ......................................................................2

                                                                                           
     Background .........................................................................3

                                                                                           
     Office of the Inspector General Audit Approach .........................4

                                                                               
FINDINGS AND RECOMMENDATIONS........................................ 5

                                                                       
     Internal Control Environment .................................................5

                                                                                     
          Single Audit ................................................................... 5

                                                                                             
          Financial Management System .......................................... 6
          
          Preparation for Recovery Act Funds ................................... 7
          
     Drawdowns..........................................................................7

                                                                                          
     Program Income...................................................................8

                                                                                        
     Grant Expenditures ...............................................................9

                                                                                         
          Personnel Expenses ........................................................ 9
 
          Administrative Costs ..................................................... 10
 
          Other Direct Costs ........................................................ 10

                                                                                         
     Supplanting ....................................................................... 11

                                                                                            
     Management of Subrecipients............................................... 12

                                                                                   
          Solicitation Process ....................................................... 12
  
          Awards Process ............................................................ 13
   
          Training and Technical Assistance ................................... 14
         
          Management of Funds ................................................... 14
       
          Monitoring ................................................................... 15

                                                                                            
     Reports ............................................................................. 17

                                                                                              
          Subrecipient Reporting .................................................. 18
   
          Financial Reports .......................................................... 18

                                                                                          
          Annual Progress Reports ................................................ 19
    
          Performance Management Tool Reports ........................... 21
             
          Quarterly Recovery Act Reports ...................................... 22
       
     Program Performance and Accomplishments........................... 24

                                                                           
     Conclusion......................................................................... 28

                                                                                            
     Recommendations .............................................................. 28

                                                                                       
APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY……….30

APPENDIX II- GRANT NUMBER 2008-DJ-BX-0026 

             ALLOCATION OF FUNDS…………….……….……....32 


APPENDIX III- GRANT NUMBER 2008-DJ-BX-0751
              ALLOCATION OF FUNDS………….………….……….40

APPENDIX IV - GRANT NUMBER 2009-SU-B9-0023 

              ALLOCATION OF FUNDS…………………...............42 


APPENDIX V -	 SCHEDULE OF DOLLAR-RELATED FINDINGS…..55


APPENDIX VI - 	 OUISIANA COMMISSION ON LAW 

              L
              ENFORCEMENT'S RESPONSE TO 

              THE DRAFT REPORT……………….…….……..……..56 


APPENDIX VII - OFFICE OF JUSTICE PROGRAMS' 

               RESPONSE TO THE DRAFT REPORT…….…...…..66 


APPENDIX VIII-	 OFFICE OF THE INSPECTOR GENERAL 

                ANALYSIS AND SUMMARY OF ACTIONS

                NECESSARY TO CLOSE REPORT……………..…...69 

              EDWARD BYRNE MEMORIAL

         JUSTICE ASSISTANCE GRANT PROGRAM 

                 GRANTS AWARDED TO 

   THE LOUISIANA COMMISSION ON LAW ENFORCEMENT

              BATON ROUGE, LOUISIANA


                                  INTRODUCTION 


       The Office of the Inspector General, Audit Division, has completed an
audit of the Edward Byrne Memorial Justice Assistance Grant (JAG) Program,
Grant Numbers 2008-DJ-BX-0026 and 2008-DJ-BX-0751, with a combined
amount of $2,065,509, and the Recovery Act Edward Byrne Memorial Justice
Assistance Grant Program State Solicitation, Grant Number
2009-SU-B9-0023 in the amount of $21,400,860, awarded by the Office of
Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the Louisiana
Commission on Law Enforcement (LCLE).2 The LCLE was created as an
office of the Louisiana State Governor in 1969 to engage in comprehensive
criminal justice planning and to distribute federal funds under the Omnibus
Crime Control and Safe Streets Act of 1968.

       The JAG Program is a formula grant program in which the 50 states,
the District of Columbia, American Samoa, Guam, the Northern Mariana
Islands, Puerto Rico, and the U.S. Virgin Islands are eligible to apply.3 The
purpose of the JAG Program is to allow states, tribes, and local governments
to support a broad range of activities to prevent and control crime based on
their own local needs and conditions. JAG funds can be used for state and
local initiatives, technical assistance, training, personnel, equipment,
supplies, contractual support, and information systems for criminal justice
for any one or more of the following purpose areas:

   • law enforcement programs;

   • prosecution and court programs;

   • prevention and education programs;




       2
          Since fiscal year 2006, BJA has awarded $37,814,307 in Edward Byrne Memorial
Justice Assistance Grant funds to the Louisiana Commission on Law Enforcement.
       3
           Formula grant programs are noncompetitive awards distributed to states based on a
specific funding formula. Byrne Grant formula awards are based on state’s or territory’s share
of violent crime and population.

                                              1

  • corrections and community corrections programs;

  • drug treatment programs;

  • planning, evaluation, and technology improvement programs; and

  • crime victim and witness programs (other than compensation).

Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets, in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      Through Recovery Act JAG funding, the Department of Justice (DOJ)
focused support on all components of the criminal justice system, including
multi-jurisdictional drug and gang task forces; crime prevention and
domestic violence programs; and courts, corrections, treatment, and justice
information sharing initiatives. Recovery Act JAG-funded projects could
address crime by providing services directly to individuals and communities
and by improving the effectiveness and efficiency of criminal justice
systems, processes, and procedures.

Audit Purpose

      The purpose of our audit was to determine whether costs claimed
under these grants were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grants. The objective of our audit was to review performance in the
following areas: (1) grant requirements; (2) internal control environment;
(3) cash management; (4) program income; (5) grant expenditures;
(6) supplanting; (7) management of subrecipients; (8) Financial Status
Reports (FSR), Progress Reports, and Recovery Act Reports; and
(9) program performance and accomplishments. Indirect costs, property
management, and management of contractors were not applicable to these
grants.


                                      2

     As shown in Exhibit 1, between March 2006 and April 2009, the LCLE
was awarded a total of $37,814,307 under both the JAG and Recovery Act
JAG Programs. However, based on grant activity, we limited our audit to
$23,466,369 in funding awarded under Grant Numbers 2008-DJ-BX-0026,
2008-DJ-BX-0751, and 2009-SU-B9-0023.4

 EXHIBIT 1: 	 EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE 

              GRANT PROGRAM GRANTS AWARDED TO THE 

              LOUISIANA COMMISSION ON LAW ENFORCEMENT 


                                    AWARD              AWARD
        GRANT AWARD               START DATE          END DATE          AWARD AMOUNT
      2006-DJ-BX-0037             10/01/2005         11/14/2010           $3,514,704
      2007-DJ-BX-0094             10/01/2006         09/30/2010            5,277,630
      2008-DJ-BX-0026             10/01/2007         09/30/2011            1,889,749
      2008-DJ-BX-0751             10/01/2007         09/30/2011              175,760
      2009-DJ-BX-0732             10/01/2008         09/30/2012            5,555,604
      2009-SU-B9-0023             03/01/2009         02/28/2013           21,400,860
                                                             Total      $37, 814,307
 Source: OJP Grants Management System

Background

       The Office of Justice Program’s mission is to increase public safety and
improve the fair administration of justice across America through innovative
leadership and programs. OJP seeks to accomplish its mission by
disseminating state-of-the-art knowledge and practices across America by
providing grants for the implementation of these crime fighting strategies.
To support this mission, the BJA provides leadership and assistance to local
criminal justice programs that improve and reinforce the nation’s criminal
justice system, with goals to reduce and prevent crime, violence, and drug
abuse and to improve the way in which the criminal justice system functions.

      The LCLE was created as an office of the Louisiana State Governor in
1969 to engage in comprehensive criminal justice planning and to distribute
federal funds under the Omnibus Crime Control and Safe Streets Act of
1968. The goal of the LCLE is to promote, advance, and coordinate services
within the entire criminal justice system. The LCLE is a governmental body
comprised of 54 members (the Board of Commissioners) representing state
and local criminal justice officials and the general public.




      4
          Our audit objective, scope, and methodology are further discussed in Appendix I.

                                               3

Office of the Inspector General Audit Approach

       We tested compliance with what we consider to be the most important
conditions of the grant awards. Unless otherwise stated in our report, the
criteria we audit against are contained in the OJP Financial Guide, award
documents, Code of Federal Regulations, and Office of Management and
Budget Circulars. We tested the LCLE’s:

   	 internal control environment to determine whether the internal
      controls in place for the processing and payment of funds were
      adequate to safeguard grant funds and ensure compliance with the
      terms and conditions of the grant;

   	 grant drawdowns to determine whether grant drawdowns were
      adequately supported and if the LCLE was managing grant receipts in
      accordance with federal requirements;

   	 program income to determine how income earned from grant funds
      was accounted for and whether its use was in accordance with the OJP
      Financial Guide and the grant award;

   	 grant expenditures to determine the accuracy and proper allowance
      of costs charged to the grants;

   	 supplanting to determine whether grant funds supplemented existing
      state and local funds for program activities;

   	 management of subrecipients to determine how the LCLE 

      administered pass-through funds;


   	 Financial Status Reports, Progress Reports, and Recovery Act
      Reports to determine if the required Financial Status Reports,
      Progress Reports, and Recovery Act Reports were submitted on time
      and accurately reflect grant activity; and

   	 grant objectives and accomplishments to determine if the LCLE
      met or is capable of meeting the grants’ objectives.

     The results of our analysis are discussed in detail in the Findings and
Recommendations section of the report. Our audit objective, scope, and
methodology are discussed in Appendix I.




                                      4

                  FINDINGS AND RECOMMENDATIONS

       We identified no findings in the areas of cash management,
       program income, or supplanting. There were minor
       deficiencies and improvements needed in areas of grant
       requirements, internal controls, and grant expenditures. We
       identified $6,972 in unsupported costs the LCLE reimbursed to
       subrecipients. We also identified findings in the areas of
       management of subrecipients, progress reporting, Recovery
       Act reporting, and program performance and
       accomplishments. The LCLE should document and complete
       more thorough monitoring, coordinate its monitoring and
       auditing efforts, ensure accurate submission of Progress
       Reports, ensure implementation of all sub-awards, and
       establish baseline data to measure program progress and
       accomplishment for each JAG award.

Internal Control Environment

      We interviewed individuals from the LCLE regarding accounting,
payroll, grant, and program management. We reviewed the financial
management system. The duties of preparing, reviewing, approving, and
generating payment to subrecipients appeared to be adequately segregated.
The LCLE’s recordkeeping procedures provided for a separate accounting of
JAG and Recovery JAG Program funds.

      We also reviewed the Louisiana’s Single Audit Report, policies and
procedures, and financial management system to assess the LCLE’s risk of
noncompliance with laws, regulations, guidelines, and terms and conditions
of the grant. We determined that the LCLE had a moderate risk of
non-compliance. The details of this non-compliance are discussed in the
Single Audit section of this report. Because of this risk, we increased the
number of transactions we tested.5

Single Audit

      According to Office of Management and Budget (OMB) Circular A-133,
non-federal entities that expend $500,000 or more in federal awards in a
year must have a single audit conducted. Louisiana’s fiscal year (FY) is from


       5
          We decided to increase our transaction testing by 10 percent, which required us to
test 110 transactions from the 2008-DJ-BX-0026, 2008-DJ-BX-0751, and 2009-SU-B9-0023
grants.


                                              5

July 1 through June 30. We reviewed the Louisiana’s Single Audit Report for
the year ended June 30, 2008, and found that the state received a qualified
opinion on its basic financial statements because of a scope limitation on the
audit of Louisiana Citizens Property Insurance Corporation, a major
component of the state. There were 81 reported findings with 43 repeated
findings from previous audits. However, we did not identify any findings
related to DOJ grants or cross-cutting to the LCLE. Although none of the
single audit findings was directly related to the LCLE, Louisiana had
significant deficiencies related to subrecipient monitoring and material
weaknesses in controls over compliance that we considered during our audit.

Financial Management System

      Louisiana’s financial management system consists of two systems, the
Integrated Statewide Information System (ISIS) and the Grant Management
Information System (GMIS). ISIS is the financial system for Louisiana and
contains applications for grant and subrecipient management, revenue and
expense recording, human resources and payroll, and fund transfers
between state agencies. According to an LCLE official, GMIS is designed
from a programmatic stand point and tracks all grant expenditures and
subrecipient activity from receiving the application, through subrecipient
award, management of expenditures, and subrecipient grant closeout.
Based on our review of these systems’ policies and procedures, interviews
with LCLE personnel, and observation of system processes, both systems
appeared to provide for segregation of duties, transaction traceability,
system security and back-up, and limited personnel access based on
passwords. However, the LCLE staff told us they would like to change to a
comprehensive grants management system to minimize the need for
reconciliation between GMIS and ISIS.

       To assess the quality of the LCLE’s financial management controls and
risk of non-compliance with laws, regulations, guidelines, and terms and
conditions of the grant, we examined the LCLE’s processes for
recordkeeping, procurement, property management, payment of invoices,
and payroll. The LCLE does not have written policy and procedures for all
processes such as payment of invoices. The LCLE staff prepared an outline
of the processes that would be used in the future. The LCLE also prepared a
procedures manual that addresses requirements for the Recovery Act. The
LCLE’s control environment appeared adequate to ensure compliance for
grant expenditures.




                                      6

Preparation for Recovery Act Funds

      The Recovery Act requires an unprecedented level of transparency and
accountability so Americans know where tax dollars are going and how those
dollars are being spent. To determine the LCLE’s ability to achieve the
accountability and transparency objectives of the Recovery Act, we
interviewed LCLE officials about their preparation for the receipt of Recovery
Act funds. LCLE officials told us that the Recovery Act grant would be
administered under the office’s existing policies and procedures. However,
the LCLE also developed some new procedures based on written and verbal
guidance from the BJA and OMB for use with the management of Recovery
Act funds. The LCLE staff received the new guidance by participating in
conference calls and webinars. The staff also received e-mail bulletins,
special conditions associated with grant awards, and OMB guidance.

      The LCLE Chief Financial Officer told us a specialized team was formed
to administer all Recovery Act funds. An LCLE official hired temporary staff
to serve in the following positions: (1) program manager, (2) monitor,
(3) accountant, (4) auditor, and (5) grant reviewer. LCLE officials told us
they used their experience from the administration of the OJP’s Hurricane
Recovery Discretionary grant as a model for the Recovery Act funds.6 The
LCLE’s preparation for the receipt of Recovery Act funds appeared to be
adequate first steps to ensure transparency. However, based on our audit
findings, we recommend that the LCLE improve its procedures to ensure
Recovery activities are accurately reported. The details of this finding are
discussed in the Quarterly Recovery Act Reports section of this report.

Drawdowns

      JAG recipients are permitted to draw down the entire award amount
and place the funds in an interest-bearing account.7 The LCLE drew down
the total award amount for Grant Numbers 2008-DJ-BX-0026,
2008-DJ-BX-0751, and 2009-SU-B9-0023. All grant funds were placed in an
interest-bearing account. We did not note any concerns regarding the
LCLE’s draw down of grant funds.
       6
         In 2006, prior to the period of our audit, Louisiana received $58.25 million through
the JAG Program to assist in the recovery of local and state criminal justice agencies
devastated by hurricanes Katrina and Rita.
       7
          The LCLE could not draw down funds for Grant Number 2008-DJ-BX-0026 until OJP
released its special conditions for the late submission of FSRs and LCLE could not draw down
funds for Grant Number 2008-DJ-BX-0751 until it submitted to OJP the complete program,
budget narratives, and JAG notification. The LCLE complied by October 8, 2008, and OJP
released all funds.


                                              7

      For Recovery Act funds, Louisiana established an accounting code
within its financial system to track revenue and expenditures. The LCLE
reconciles the grant’s revenues and expenditures monthly and reports the
financial activity quarterly in the Financial Status Reports.

Program Income

      According to the OJP Financial Guide, all income generated as a direct
result of an agency-funded project is considered to be program income.
Interest income on block grants, such as the JAG program must be
accounted for and reported as program income. Program income may be
used to further program objectives, and any unexpended program income
should be remitted to OJP.

      Grant officials told us that the entire grant award is drawn down and
received from OJP. The funds are placed in an interest-bearing account.
Each month, the LCLE provides the State Treasury with the remaining
balance for each grant. Staff at the State Treasury office computes the
interest based on the average daily balance. In addition, grant officials
explained that subrecipients earn program income from asset forfeitures and
fees charged to offenders.

      As shown in Exhibit 2, Louisiana earned $485,483 in interest income
from Grant Numbers 2006-DJ-BX-0037, 2007-DJ-BX-0094,
2008-DJ-BX-0026, 2008-DJ-BX-0751, and 2009-DJ-BX-0732. From the
Recovery Act Grant Number 2009-SU-B9-0023, the state earned $27,340.
To determine if the LCLE properly reported interest income to OJP, we
reviewed the FSRs for the quarter ended December 31, 2009. The LCLE
reported interest income on the FSRs. Because none of the grants had
expired at the conclusion of our audit, the LCLE was not required to remit
any unexpended interest income to OJP.




                                      8

           EXHIBIT 2: SUMMARY OF PROGRAM INCOME
                      FROM INCEPTION TO DECEMBER 31, 2009

                     GRANT NUMBERS AWARDED               INTEREST EARNED
        2006-DJ-BX-0037                                         $286,024
        2007-DJ-BX-0094                                          169,606
        2008-DJ-BX-0026                                           21,241
        2008-DJ-BX-0751                                              975
        2009-DJ-BX-0732                                            7,637
                                             JAG Total         $485,483
        2009-SU-B9-0023                                           27,340
                               Recovery Act JAG Total           $27,340
                                      Combined Total           $512,823
      Source: LCLE

Grant Expenditures

      The OJP Financial Guide serves as a day-to-day management tool to
award recipients and subrecipients for administering grant programs. The
Guide establishes the factors affecting the allowance, reasonableness, and
allocation of costs charged to DOJ grants.

Personnel Expenses

       We reviewed the LCLE’s personnel files for nine individuals whose
personnel costs were charged to Grant Number 2009-SU-B9-0023. We
traced labor costs to timesheets for two nonconsecutive pay periods to verify
whether the costs were computed correctly, properly authorized, accurately
recorded, and properly allocated to the grants. The costs associated with
salaries and fringe benefits were supported and reasonable. However, we
noted that a former LCLE Executive Director’s timesheet did not contain an
approval signature but was processed by the payroll department. In
addition, we found minor errors in the number of hours recorded on 3 of 18
timesheets. The grants we audited were not affected by these errors and we
make no recommendation regarding the errors. However, because improper
review of timesheets poses some risk for all grants administered by the
LCLE, we discussed the approval of the former executive director’s timesheet
and the other errors with an LCLE official. The official told us the LCLE will
consider options to correct the review of all employees’ timesheets. During
the audit, the LCLE implemented a new procedure requiring a deputy
director’s review and signature on the executive director’s timesheet.


                                        9

Administrative Costs

      Recipients of JAG grants may use up to 10 percent of each grant
award for administrative costs. The LCLE used grant administrative funds to
pay for office supplies, utilities, equipment, and other grant-related items.
The LCLE expends all the administrative funds from one grant before
expending the administrative funds from the subsequent grants. The LCLE
used administrative funds from Grant Number 2006-DJ-BX-0037 to pay for
expenses related to all of its subsequent JAG grants except for the Recovery
Act grant. The LCLE used administrative funds from the Recovery Act grant
for the personnel costs of staff hired for that grant, but it held the
administrative funds for the other JAG grants pending expenditure of all
administrative funds for Grant Number 2006-DJ-BX-0037. We believe that
the LCLE’s ability to monitor and perform other oversight activities for the
JAG grants is limited because it does not annually expend available
administrative funds to support such activities. Problems with the LCLE’s
monitoring and oversight activities are discussed in the Management of
Subrecipients section of this report.

      We discussed with an LCLE official the LCLE’s process for using
administrative funds for 1 year to cover the administrative costs of multiple
years’ grants. The official told us that the LCLE does not plan to change its
method of expending administrative funds until the state changes its
procedures for allocating budget authorizations each year.

Other Direct Costs

      We tested the general ledger accounts for Grant Numbers
2008-DJ-BX-0026, 2008-DJ-BX-0751, and 2009-SU-B9-0023. We selected a
sample of 110 transactions, totaling $2,665,917.8 We identified $6,972 in
questioned costs for unsupported expenditures in 3 of 55 transactions from
Grant 2008-DJ-BX-0026. Exhibit 3 shows the unsupported amounts.




      8
         We selected 55 transactions totaling $485,783 of $921,264 (53 percent) expenses
from Grant Numbers 2008-DJ-BX-0026 and its supplement Grant Number 2008-DJ-BX-0751
and 55 sample transactions totaling $2,180,134 of $2,594,898 (84 percent) expenses for
Grant Number 2009-SU-B9-0023.

                                           10 

                 EXHIBIT 3: DETAIL OF QUESTIONED COSTS 


                                   Amount of           Unsupported
         Subrecipient ID         Reimbursement           Amount
             B08-7-001                     $14,792             $4,995
             B08-6-006                       4,749                402
             B08-7-013                       1,575              1,575
               Total                      $21,116             $6,972
      Source: OIG Analysis

       These costs were unsupported because the LCLE did not provide
sufficient documentation for the transactions. This demonstrated that
subrecipients did not have adequate support for some of the reimbursement
requests. At our request, the LCLE staff asked the subrecipients for
additional documentation to support the questioned transactions.
Subrecipient B08-7-001 provided no additional documentation. Subrecipient
B08-6-006 provided documentation showing that $402 of the $4,749
amount reimbursed occurred prior to the grant’s award. Subrecipient
B08-7-013 provided documentation showing that the expenditure occurred
after the grant period ended. None of the documentation provided by the
subrecipients was sufficient to support the transactions.

      For Grant Number 2009-SU-B9-0023, the LCLE authorized a $21,484
reimbursement request for equipment purchased by a subrecipient. The
subrecipient purchased the equipment 1 month prior to the start of the grant
award period. The LCLE also improperly classified $52,391 in construction
costs as equipment. For the early purchase transaction, the LCLE took
corrective action by approving an adjustment to the original sub-award
period. For the construction transaction, the LCLE made an adjustment to
correct the classification of the construction project. Consequently, we do
not question the costs for these transactions.

Supplanting

       According to OJP, federal funds must be used to supplement existing
state and local funds for program activities and must not replace funds that
have been appropriated for the same purpose. To determine whether the
LCLE used grant funds to supplant existing state and local funds for program
activities, we reviewed the state budgets for FY 2004 through FY 2010. We
found no indication that the LCLE used federal funds to supplant state funds.




                                     11 

Management of Subrecipients

       State awarding agencies must ensure that all sub-awards made from
the JAG and the Recovery Act JAG program meet certain legislative,
regulatory, and administrative requirements. As part of these requirements,
the LCLE must monitor subrecipients’ activities to assure compliance with
federal law. The LCLE made 413 sub-awards from Grant Numbers
2006-DJ-BX-0026, 2007-DJ-BX-0094, 2008-DJ-BX-0026, 2008-DJ-BX-0751,
2009-DJ-BX-0732, and 2009-SU-B9-0023. To determine whether the LCLE
adequately managed its subrecipients, we focused our examination on
categories we consider most critical to the effective management of
subrecipients, such as how the LCLE solicits subrecipients, provides training
and technical assistance, issues sub-awards, manages funds, and monitors
and reports subrecipient activities. LCLE officials told us that the policies
and procedures used to manage subrecipients for current JAG grants are
generally the same for the Recovery Act JAG grant. However, the LCLE
established appropriate additional requirements in the Recovery Act JAG
grant.9 The LCLE established the LCLE American Recovery and
Reinvestment Act Procedures, to assist in managing subrecipient awards.
The procedures outline activities applicable to subrecipients to manage the
awards including: (1) sole source procurement, (2) grant budget
adjustments, (3) expenditure reimbursement, (4) special funding requests,
(5) contracting and procurement guidelines, (6) monitoring of grant
activities, and (7) audit requirements.

Solicitation Process

       The LCLE solicited applications for sub-awards on a formula basis.
Louisiana’s parishes are divided into eight local Law Enforcement Planning
Districts (LEPDs), which are comprised of a district program director and a
council. The state advises each LEPD of their allocation based on available
funding and the priorities within the state’s plan.10 The allocation of grant
funding by district is listed in Exhibit 4.




        9
         For example, subrecipients may register in the BJA’s Performance Management
Tool system to report its progress rather than submit a hardcopy document to the LCLE to
compile into an overall report.
        10
             The percentage is determined by the population and crime statistics within each
district.

                                               12 

             EXHIBIT 4: PERCENTAGE BREAKDOWN BY DISTRICT


                     District Number and Name                   Percentage
               1   – Northwest                                       11.11
               2   - North Delta                                      7.82
               3   - Red River                                        9.54
               4   – Evangeline                                      10.50
               5   – Capital                                         15.60
               6   - Southwest                                       10.16
               7   – Metropolitan                                    15.88
               9   – Orleans                                         19.39

                     Total                                           100.00
              Source: LCLE

       We reviewed the LCLE’s solicitations for potential subrecipients. As
part of our review, we evaluated the solicitation’s description for the use of
funds within purpose areas, eligibility, and requirements for application, the
minimum and maximum award amounts, the anticipated award date and
grant period, and the award evaluation process. We found that the
solicitations were accurate, fully described the grant program, and provided
detailed requirements.

Awards Process

       Subrecipients receive grant funds through the following process.

   1. Potential subrecipients submit applications to the LEPD program 

      directors and councils for review and approval. 


   2. The LEPD approves the application and submits them to the LCLE
      program manager and staff. The applications are assessed to
      determine the extent to which the proposed use of grant funds meets
      the state’s needs and conformity to grant requirements. The program
      manager advises applicants if changes are needed.

   3. The LCLE staff submits the approved applications to the Commission’s
      Advisory Board for its review.11 Representatives of each potential
      subrecipient must attend the Advisory Board meeting to answer any



       11
            The advisory board consists of three sheriffs, three district attorneys, three chiefs of
police, one marshal or constable, five at-large members who are active in community drug
control and prevention, the Superintendent of the Department of Public Safety, the Executive
Director of the Louisiana Sheriff’s Association, and the Executive Director of the Louisiana
District Attorney’s Association.

                                                13 

      questions that the board members may ask. Failure to attend the
      meeting will result in a denial of recommendation for grant funding.

   4. The Commission’s Advisory Board submits its recommendations for
      funding approval to the full Board of Commissioners for final approval.

   5. The Commission holds another meeting that potential subrecipients
      attend. The Commission gives final approval to the subgrant
      applications at this meeting.

   6. The LCLE issues the sub-award and sends an award packet to each
      subrecipient for acceptance.

   7. Subrecipients must acknowledge and certify their respective awards
      before funding begins.

       At each step of the award process, the reviewing district, board, or
commission may modify, attach special conditions, or reject an application.
We reviewed the universe of applicants for Recovery Act JAG funding and
the Application and Review Summary used to evaluate each applicant’s grant
proposal package. The sub-awards approved by the Commission appeared
fair and reasonable based on the documentation provided during our review.
The Commission received 147 applications from the LEPDs for consideration
and approved 131 for grant funding. Most subrecipients received a reduced
amount because of the limited funds available.

Training and Technical Assistance

       The LCLE staff provides on-going training and technical assistance to
subrecipients. The technical assistance is provided by telephone, e-mail, in
writing, or in person. The LCLE staff documents those activities in the
subrecipient grant files. The training covered grant applications, registration
for the Performance Management Tool, completion of periodic progress and
financial reports, and requirements of the Recovery Act and LCLE. LCLE
program managers plan to continue an effort incorporating more training
opportunities as the grant program continues and problem areas are
identified.

Management of Funds

      According to the LCLE Chief Financial Officer, reimbursements to
subrecipients generally occur on a monthly basis. Each subrecipient completes
a reimbursement request form for expenditures incurred and submits the forms
to the LCLE for review and approval. An LCLE official reviews the forms for

                                      14 

discrepancies and timeliness of submission. After that review, an LCLE
official signs the form and approves the payment for processing by the State
Treasury.12

      Our concerns about individual transactions are contained in the Grant
Expenditure section of this report. In addition to those concerns, it appears
that the LCLE did not follow its procedures for awarding two sole source
providers requested by one subrecipient under the Recovery Act grant.13
The LCLE procedures state that a subrecipient must submit a signed copy of
the contract for which the sole source approval is sought. We could not
determine when the subrecipient submitted its sole source justification for
the providers because the documents were not dated or signed. The LCLE
procedures also state that procurements under $100,000 must be approved
by an LCLE program manager, an advisory board, and the Commission. The
two sole source agreements equal $51,656 of the total $68,855 sub-award
amount according to LCLE. The grant file included only e-mail records
showing the program manager approved the subrecipient’s request. The
Chief Financial Officer told us that one sole source provider was not certified
to do business in the state and was later approved with exception. The LCLE
should ensure all sole source requests are awarded in accordance with
applicable procedures.

Monitoring

      Grant monitoring is an essential tool to ensure that grant programs are
implemented, objectives are achieved, and grant funds are properly
expended. OJP requires that sub-awards be monitored throughout the life of
the grant to ensure that: (1) the subrecipient complies with the
programmatic, administrative, and fiscal requirements of the relevant
statutes, regulations, policies, and guidelines; (2) programs initiated by the
subrecipient are carried out in a manner consistent with the relevant
statutes, regulations, policies, and guidelines of the program; (3) the
subrecipient is provided guidance on policies and procedures, grant program
requirements, general federal regulations, and basic programmatic,
administrative, and financial reporting requirements; and (4) any problems


       12
            The LCLE staff checks GMIS for warning notices before a reimbursement request is
completed for payment. For example, GMIS notifies the reviewer if a subrecipient has not
received an on-site visit. In this instance, the LCLE holds 10 percent of a subrecipient's funds
until it completes a monitoring on-site visit.
       13
           The OJP Financial Guide states that recipients and subrecipients shall use their own
procurement procedures and regulations, provided that the procurement conforms to
applicable federal law and standards.


                                              15 

that may impede the effective implementation of grant programs are
identified and resolved.

      According to the LCLE officials, the following monitoring activities are
performed.

   	 Review of the Reimbursement Requests – The LCLE staff reviewed
      each recipient reimbursement request by verifying the amount
      requested and confirming the amount to the subrecipient’s budget.
      The LCLE staff also verified that no holds were placed on a
      subrecipient for not filing reports or monitoring. After this review, an
      LCLE official signed and approved the request for payment.

   	 Recovery Act Grant On-Site Monitoring Review – The LCLE staff
      performed reviews of subrecipients. The LCLE planned to visit each
      subrecipient once each year and a monitoring visit was to be
      completed before releasing the final 10 percent of a subrecipient’s
      grant award. These reviews included interviews of subrecipient staff,
      review of progress toward meeting project objectives, and review of
      grant expenditures.

   	 Internal Audit and Compliance Review – The LCLE staff performs a
      more detailed review than the monitoring visits. This type of review
      covers financial documentation and adequate support for expenditures
      under the grant.

   	 Program Evaluations and District Desk Reviews – The LCLE
      program staff conducted evaluations of subrecipient performance in
      accomplishing grant requirements. LEPD staff also completed desk
      reviews to check for overall subrecipient compliance with state and
      local objectives.

      An LCLE official told us that one staff member conducted audits of the
subrecipients that received federal hurricane grant funds from FY 2006
through 2009. While these audits were underway, no audits of JAG grant
fund subrecipients were conducted. As a result of the Recovery Act funding,
the LCLE hired an additional staff member to conduct monitoring reviews
and audits of subrecipients receiving both JAG and Recovery Act grant funds.
As of December 17, 2009, the LCLE staff had conducted 11 audits of
Recovery Act subrecipients. The LCLE staff used a standard compliance form
to monitor:




                                      16 

       general administrative matters;

       personnel paid with grant funds;

       grant purchases and other direct costs;

       subrecipient program income; and

       grant performance, goals, and objectives.

      We assessed five audits and ten monitoring reviews completed for
Grant Number 2009-SU-B9-0023. Each review was for subrecipients under
the Recovery Act grant. At the time of our audit work, no audits had been
completed for Grant Numbers 2008-DJ-BX-0026 and 2008-DJ-BX-0751.
The LCLE Chief Financial Officer told us that no audits were conducted on
subrecipients of the JAG grants since 2005 because the LCLE focused its
reviews on subrecipients for the hurricane grants. Because the hurricane
funding was ending December 31, 2009, the LCLE officials told us they
expected to accomplish approximately five audits each month for all JAG
subrecipients beginning in January 2010.

       For the audits and reviews, we assessed whether the LCLE followed its
established procedures and the subrecipients resolved any findings. We
determined the LCLE could improve its subrecipient monitoring. The staff
conducting the monitoring reviews generally spent only 4-hours completing
the visits. In our judgment, the time spent on the reviews did not permit a
thorough review of the grant documents and activities, and did not provide
for a complete and accurate report. More reviews that are complete would
help the LCLE meet grant requirements and provide more guidance to
subrecipients.

      The reports for the audits and reviews contained some incomplete
information and errors. We found that the LCLE did not complete 7 of 10
monitoring reports. These discrepancies consisted of unanswered questions
and no review of accounting records, performance goals, or grant objectives.
We discussed these discrepancies with LCLE officials. The LCLE officials
acknowledged these mistakes and noted that additional training would be
provided to its staff so improvements could be made.

Reports

      According to the OJP Financial Guide, award recipients are required to
submit both financial and program reports. These reports describe the
status of the funds and the project, compare actual accomplishments to the

                                     17 

objectives, and report other pertinent information. We reviewed the FSRs,
Annual Progress Report, Performance Management Tool Reports, and the
Recovery Act Reports submitted by the LCLE to determine whether each
report was timely and accurate.

Subrecipient Reporting

      Subrecipients are notified of the grant reporting requirements upon
application for the sub-award. The LCLE staff provides the procedures, due
dates, and reporting examples to the subrecipients. These materials are
designed to ensure timely and accurate reports. However, we noted
problems in timeliness, accuracy, verification, and completeness of the
reports as detailed below and in the Monitoring section of this report.

Financial Reports

       According to the OJP Financial Guide, at the time of our audit quarterly
FSRs were due no later than 45 days after the end of the quarter, with the
final FSR due within 90 days after the end date of the award. Effective for
the quarter ended December 31, 2009, grantees must report expenditures
online using the Federal Financial Report Form (FFR-425) no later than 30
days after the end of each calendar quarter. The final report must be
submitted no later than 90 days following the end of the grant period.

      We reviewed the timeliness and accuracy of the last five FSRs from
Grant Numbers 2006-DJ-BX-0037, 2007-DJ-BX-0094, 2008-DJ-BX-0026,
2008-DJ-BX-0751, 2009-DJ-BX-0732 for the quarter ended
December 31, 2009. We also reviewed the last two FSRs from
Grant Number 2009-SU-B9-0023 for the quarter ended December 31, 2009.

      We found LCLE submitted all reports timely. The OJP Grant
Management System (GMS) identified 3 late reports for
Grant Number 2009-DJ-BX-0732. An LCLE official told us GMS generated a
notice for delinquent financial reports without considering the actual
OJP-award date and LCLE-acceptance date. OJP awarded the grant on
August 14, 2009. The LCLE accepted the award on August 17, 2009.14 The
LCLE prepared and submitted FSRs for the quarters ended December 2008,
March 2009, and June 2009 on August 18, 2009. Because the grant was not
awarded and accepted until after the due dates for each report, we take no
exception to the late reports identified within GMS.


      14
         The project period for Grant Number 2009-DJ-BX-0732 is October 1, 2008, through
September 31, 2012.

                                          18 

      We also reviewed each FSR to determine whether the reports included
accurate information for actual expenditures and cumulative interest income
earned and expended during the reporting period. We compared the FSRs
to the detailed accounting records provided by the LCLE. The FSRs
submitted for Grant Numbers 2006-DJ-BX-0037, 2007-DJ-BX-0094,
2008-DJ-BX-0026, 2008-DJ-BX-0751, 2009-DJ-BX-0732, and
2009-SU-B9-0023 were accurate.

Annual Progress Reports

       The Office of Justice Programs requires all JAG recipients to submit
annual progress reports. For FY 2008 and prior, the annual reporting period
for all state and local JAG awards is January 1 through December 31, with
reports due March 31. For FY 2009 and forward, including Recovery Act JAG
grants, state recipients must submit annual progress reports and quarterly
Performance Management Tool (PMT) reports. The annual progress
reporting period is the award start date through September 30, with reports
due November 29. The quarterly PMT reports are due on the 30th of the
month following the close of a quarter. State recipients may use the four
PMT reports to satisfy the annual reporting requirement by uploading the
reports into GMS.

       We requested the annual progress reports for Grant Numbers
2008-DJ-BX-0026, 2008-DJ-BX-0751, and 2009-SU-B9-0023. The LCLE
provided an annual progress report for the period ended
December 31, 2008, for Grant Number 2008-DJ-BX-0026.15 An LCLE official
told us this report submitted to OJP summarized all open JAG grants. We
told the LCLE staff that OJP requires separate progress reports for each JAG
award. During an on-site review conducted during our audit, an OJP official
also noted this problem and explained to the LCLE staff that all future annual
progress reports should be submitted individually.

      We compared the submission date of the annual progress report to the
OJP-required date. The LCLE submitted the December 2008 annual progress
report on June 25, 2009. The report was due on March 31, 2009, and is
considered 86 days late. An LCLE official told us they initially submitted the
annual progress report on December 29, 2008, but GMS rejected the report
because the report was submitted before the end of the new reporting
period. The LCLE official also told us after the report was rejected, the LCLE

       15
            In addition to OJP’s standard form used to complete the annual progress report, the
LCLE submitted a 155-page document, titled the “2008 Annual Report” that included an
evaluation of goals obtained by subrecipients. This document does not include information
specific to each Byrne JAG award.


                                              19 

started to allocate the 2009-SU-B9-0023 grant funds and did not realize
they missed the deadline for submitting the annual progress report.

       To determine the accuracy of the December 2008 annual progress
report, we requested supporting documentation for a sample of goals the
LCLE stated it accomplished. We requested supporting documentation to
test the following: (1) reduced illicit drug trafficking, (2) updated “high
tech” equipment, and (3) reduced offender recidivism to verify the LCLE’s
reported program accomplishments. The LCLE staff told us they do not
verify the accuracy of the quarterly progress reports submitted by the
subrecipients to supporting documentation.16 The LCLE officials told us they
would improve in this area by including this as a monitoring step.17

      We requested baseline data to measure the sampled goals. The OJP
Financial Guide requires the LCLE to identify data that measures the results
of their work for each grant. The LCLE could not provide baseline data for
the sampled goals specific to each 2008 grant because the LCLE did not
measure program goals accomplished for the 2008 grants. 18 The
December 2008 annual progress report did not provide an accurate report of
the LCLE’s accomplishment of its goals specific to the 2008-DJ-BX-0026 or
2008-DJ-BX-0751 grant.

      For Grant Number 2009-SU-B9-0023, an LCLE official also told us the
September 2009 PMT report was completed and uploaded into GMS to serve
as the annual progress report. The LCLE staff submitted the
September 2009 PMT report timely on November 17, 2009. OJP approved
this PMT as an annual report in GMS on January 6, 2010. In the following


       16
           The LCLE requires subrecipients to complete quarterly progress reports specific to
their funded program. The LCLE staff combines the information from these quarterly reports
into a database to prepare its annual progress reports.
       17
           On March 26, 2010, the LCLE submitted another annual progress report for Grant
Number 2008-DJ-BX-0026. The OJP returned the report due to insufficient information in the
performance management section. On May 3, 2010, the LCLE submitted an annual progress
report for Grant Number 2008-DJ-BX-0751. OJP returned this report for clarification and
reminded the LCLE staff to report on each JAG award separately.
       18
            Because the LCLE used subrecipient reports for its annual progress reports, we
obtained copies of the subrecipient’s quarterly reports related to recidivism. We reviewed the
reports to determine if “offender recidivism was reduced” with the 2008-DJ-BX-0026 grant
funds. LCLE staff provided summaries of subrecipient progress reports on the pre-trial
intervention program, drug screening program, and drug court program, which are all funded
to help reduce recidivism. We determined that the LCLE did not award any subgrants related
to recidivism with Grant Number 2008-DJ-BX-0026.


                                             20 

section, we discuss the PMT reports submitted as a required quarterly
report.

Performance Management Tool Reports

     The LCLE submitted the quarterly PMT reports for Grant Number
2009-SU-B9-0023 as required by OJP. These reports are uploaded to BJA’s
PMT system.19

       At the time of our audit, the LCLE staff had completed the three
required PMT reports for the quarters ended June 30, 2009,
September 30, 2009, and December 31, 2009, for Grant Number
2009-SU-B9-0023. We attempted to test the September 2009, PMT report
for timeliness and accuracy. We asked an LCLE official to provide support
for the timely submission of the September 2009 report. The LCLE official
told us she referred to the PMT system to obtain supporting documentation.
The date of submission was not available in the system and the PMT
Helpdesk staff could not provide the date. Therefore, we could not
determine if LCLE timely submitted the September 2009 PMT report as a
quarterly report to the PMT system.

       To determine the accuracy of the report, we requested supporting
documentation for a sample of performance indicators the LCLE stated as
the status for: (1) the number of law enforcement personnel retained with
Recovery JAG funds; and (2) cost savings, in work hours, for new systems
implemented as a state or local initiative. The LCLE staff did not provide
supporting documentation for the sampled data because they could not
determine what data was submitted by each subrecipient. The subrecipients
entered the information directly into the PMT system and the LCLE staff used
this same information to submit the final PMT report to BJA as a quarterly
report. An LCLE official told us they were working with BJA to determine a
way to identify the corresponding subrecipient to supporting documentation.
Because there was no supporting documentation available, we could not
determine if the LCLE submitted a PMT report that accurately reflects the
LCLE’s accomplishment of its goals and objectives for Grant Number
2009-SU-B9-0023.




       19
           The BJA Performance Management Tool supports BJA grantees’ ability to identify,
collect, and report performance measurement data on activities funded by their award.


                                            21 

Quarterly Recovery Act Reports

      In addition to standard reporting requirements, grantees receiving
Recovery Act funding must also submit quarterly reports, which require both
financial and programmatic data specific to Recovery Act activities.
According to the BJA and OMB guidance, Recovery Act Reports are due
10 days after the close of each quarter.20

      For Grant Number 2009-SU-B9-0023, we reviewed the third and fourth
quarter Recovery Act Reports for timeliness. The LCLE submitted each
report timely. According to OMB guidance, the reports provide transparency
for the use of these funds. The Recovery Act Reports are required to include
the following information:

   	 total amount of funds received and spent on projects and activities;

   	 a list of projects and activities funded by name, including a 

      description, completion status, and estimates on jobs created or 

      retained; and 


   	 details on sub-awards and other payments.

       We reviewed the fourth quarter 2009 Recovery Act Report for
accuracy. An LCLE official told us that each subrecipient submits a Recovery
Act report to the LCLE. The LCLE staff compiles all of the responses and
submits one report to FederalReporting.gov. Prior to testing the fourth
quarter report, we asked an LCLE official about the reporting process. The
LCLE official told us that: (1) there were no systemic reporting problems,
(2) its monitoring staff was in the process of reviewing the prior Recovery
Act report for corrections, (3) subrecipients routinely entered the wrong
congressional code and amount of funds expended, (4) the LCLE was unsure
of the number of jobs it would be able to create or sustain prior to receiving
the Recovery grant funds, and (5) all subrecipients did not submit their
individual Recovery Act reports for the fourth quarter reporting period.

      The LCLE included information for 122 of 131 subrecipients in the
fourth quarter 2009 Recovery Act Report.21 We asked LCLE officials why
9 of 131 subrecipients did not submit Recovery Act reports. An LCLE official

       20
         According to FederalReporting.gov, the subrecipient reporting due date of
January 10, 2010, was extended to January 22, 2010.
       21
           LCLE report showed 123 subrecipients. However, one subrecipient’s information
was listed twice.


                                            22 

told us (1) LCLE did not have any notes about why one report was late,
(2) one subrecipient submitted its report after the federal reporting deadline,
and (3) one sub-award had not been accepted by the reporting deadline.
Three subrecipients did not provide a response to the LCLE. The other three
subrecipients provided a variety of reasons for not submitting reports.
Those reasons consisted of: (1) the agency had a backlog of reports,
(2) staff family emergency interfered with the completion of the report, and
(3) staff had not been informed of the notices on reporting.

      We reviewed information in the fourth quarter 2009 Recovery Act
Report for a sample of subrecipients. We compared the information to the
subrecipients’ grant files for accuracy. The LCLE reported $4,184,650 in
disbursements to 122 subrecipients. We traced a sample of 14
subrecipients’ disbursements, totaling $1,107,279, to supporting
documentation. The LCLE accurately reported the funds reimbursed.

       Using the same sample discussed above, we traced the sub-award
date to supporting documentation for each subrecipient. We found
inconsistency in the reported subaward date on the fourth quarter 2009
Recovery Act Report. The sub-award date was listed as either the date the
subrecipient or the LCLE signed the sub-award document or the project’s
start date. The sub-award date should have been shown as the date the
sub-award document was signed according to Recovery.com in a document
titled “Recipient Reporting Data Model” for quarter ended
December 31, 2009. An LCLE official told us they were aware of the
inconsistency and will have the subrecipients use the correct date in the
future.

      For the Recovery Act reports, the data pertaining to jobs created and
retained is reported as Full Time Equivalents (FTE). According to OMB
Memorandum 10-08, dated December 18, 2009, the formula for calculating
FTEs is as follows.

     TOTAL NUMBER OF HOURS WORKED                  QUARTERLY HOURS
      AND FUNDED BY RECOVERY ACT           ÷        IN A FULL-TIME       =      FTES
                                                               22
       WITHIN REPORTING QUARTER                      SCHEDULE


      The LCLE staff reported 83.23 FTEs as jobs created or sustained in the
fourth quarter 2009 Recovery Act Report. We were not able to verify the
accuracy of the FTEs reported because the LCLE staff did not provide


       22
          OMB Memorandum 10-08 describes the calculation for quarterly hours in a full-time
schedule as 520 hours (2,080 hours annually divided by 4 quarters).

                                            23 

supporting documents for each subrecipient’s FTE calculation.23 During this
audit, an LCLE official told us they realized some of the subrecipients
reported FTEs although their sub-award did not fund jobs. Because the
subrecipients reported inaccurate information, the LCLE should correct data
reported for the quarter ended December 2009. Also, in response to this
finding, an LCLE official provided a copy of written procedures it planned to
follow in verifying FTEs effective for the first quarter 2010 Recovery Act
Report. The LCLE submitted a spreadsheet to show its efforts made to
report the FTEs correctly for the January 2010 through March 2010 reporting
period. The spreadsheet includes a list of all 131 subrecipients and identifies
the subrecipients that received funding for positions and the number of FTEs
reported by each subrecipient. This information allows the LCLE staff to
easily identify and add only funded FTEs.

       For Grant Number 2009-SU-B9-0023, we asked the LCLE if they
submitted any corrections for the fourth quarter 2009 Recovery Act Report
and verified the accuracy of the reported 83.23 FTEs. An LCLE official told
us no revisions were made to the report, and the FTE totals could not be
verified because of insufficient information submitted by subrecipients. An
LCLE official also told us they continue to require its subrecipients to provide
written documentation of hours reported each quarter. Based on our review,
the Recovery Act report covering the period October 1, 2009, through
December 31, 2009, did not include correct information for all subrecipients
and included unsupported FTE calculations.

Program Performance and Accomplishments

      The LCLE was awarded funds under the JAG and Recovery Act awards
to continue projects according to the JAG purpose areas and Louisiana’s
following three priority areas.

    	 Priority One: establish and continue programs to impact drug
       control and violent or non-violent crime and related prosecution
       problems of the state.

    	 Priority Two: address recidivism by strengthening those areas of
       the criminal justice system where emphasis on the prevention of
       crime and drug abuse intervention, treatment, and rehabilitation is
       lacking.


       23
           An LCLE staff member provided us a compact disk with the subrecipients’ job
calculations spreadsheets. The LCLE staff member used the Recovery Act reports instead of
the job calculation documents to determine the 83.23 FTEs. We were not able to find or
match the Recovery Act reports on the compact disk for 48 of the 122 subrecipients.

                                            24 

    	 Priority Three: respond to the need for specialized law 

       enforcement, prosecution, judicial system improvement, and 

       enhancement of forensic laboratories. 


       In the applications for the 2008 grants and 2009 Recovery grant, the
LCLE consistently described programs it planned to fund under each priority
area. The LCLE described each priority as “areas of greatest need” in an
effort to enhance anti-crime and drug-control law enforcement services in
Louisiana. We asked LCLE staff to provide supporting documentation used
to determine the priority areas and the goals accomplished through program
activity. An LCLE official told us the priority areas are determined based on
staff experience and knowledge of law enforcement programs. Also, the
official said, subrecipients’ historically request the same programs, such as
Knock and Talk in its applications.24 We believe the LCLE staff could improve
its method for identifying priority areas and needs for its formula JAG
program. We explained to the LCLE staff that they could be misstating its
“greatest areas of need” by not using more reliable sources of information,
such as statistical data, financial documents on historical sub-award funding,
and past subrecipient applications. The LCLE officials agreed.

       In each application for Grant Numbers 2008-DJ-BX-0026,
2008-DJ-BX-0751, and 2009-SU-B9-0023, the LCLE stated that it planned to
allocate funds for sub-awards in six of seven JAG purpose areas as follows:
(1) 60 percent for law enforcement programs; (2) 6 percent for prosecution
and court programs; (3) 8 percent for prevention and education programs;
(4) 0.5 percent for corrections and community corrections programs;
(5) 4.5 percent for drug treatment programs; and (6) 21 percent for
planning, evaluation, and technology improvement programs.25 The LCLE
staff provided supporting documentation for actual allocation of the grant
funds. The following exhibit shows the actual allocations for each grant
reviewed.26


       24
           The LCLE identified the following programs that support each priority area as:
(1) Knock and Talk – utilizes law enforcement resources to effectively address citizen
complaints of illegal drug activities at residences and reduces the number of drug related
warrants; (2) Pre-Trial Intervention – reduces the trial caseload of first offense substance
abuse related crimes by monitoring through drug testing and treatment; and
(3) Anti-Terrorist – develops a team of select law enforcement officers capable of dealing with
terrorists and other volatile situations beyond the scope of conventional law enforcement.
       25
          The LCLE has not made sub-awards for the most recently added purpose area,
Crime Victim and Witness Program.
       26
         See Appendix II, III, and IV for a list of the 2008-DJ-BX-0026, 2008-DJ-BX-0751,
and 2009-SU-B9-0023 sub-award recipients.

                                              25 

               EXHIBIT 5: ACTUAL ALLOCATION FOR GRANT

                        FUNDS BY JAG PURPOSE 


                                     Amount and Percent Allocated
Area Funded             2008-DJ-BX-0026 2008-DJ-BX-0751 2009-SU-B9-0023
Law Enforcement
Programs                      $1,026,335         $61,111       $6,280,061
                                 54.311%         34.770%          29.345%
Prosecution and Court
Programs                         $31,262          $5,282       $1,381,161
                                  1.654%          3.005%           6.454%
Prevention and
Education Programs               $11,714              $0        $598,407
                                  0.620%          0.000%          2.796%
Corrections and
Community Corrections
Programs                             $0               $0       $1,210,923
                                 0.000%           0.000%           5.658%
Drug Treatment and
Enforcement Programs             $99,783         $21,470       $3,100,000
                                  5.280%         12.216%          14.485%

Planning Evaluation,
and Technology
Improvement Programs            $467,768         $46,594       $7,117,359
                                 24.753%         26.510%          33.257%
Crime Prevention and
Witness Programs                     $0               $0              $0
                                 0.000%           0.000%          0.000%
LCLE Administrative
Costs                           $188,975         $17,576       $1,712,069
                                 10.000%         10.000%           8.000%
Unallocated Grant
Funds                            $63,912         $23,727            $880
                                  3.382%         13.500%          0.004%


Total                        $1,889,749        $175,760      $21,400,860
                                  100%            100%             100%
Source: LCLE




                                     26 

       We identified variances in the planned and actual allocation. An LCLE
official told us this occurred because the actual percentage of sub-awards
depends on final approval of the subrecipients’ applications. We do not take
exception to the difference in the LCLE’s planned and actual allocation of
sub-awards by JAG purpose area. However, the LCLE has not allocated
$88,519 of the funds for three grants. The unallocated funds represent
0.38 percent of total grant funds available from the three grants. An LCLE
official told us they have plans for most of the unallocated funds as follows.

   	 The LCLE plans to sub-award $60,353 of the unallocated funds to
      subrecipient B08-8-003 to enhance its grants system or to supplement
      the criminal records improvement program for Grant Number
      2008-DJ-BX-0026. The LCLE does not have specific sub-award plans
      for the remaining $3,559 of unallocated grant funds.

   	 The LCLE plans to pass through the unallocated $23,727 as a                        

      sub-award to subrecipient B81-8-002 for criminal records 

      improvement for Grant Number 2008-DJ-BX-0751. 


   	 The LCLE plans to pass through the unallocated $880 as a sub-award
      for Grant Number 2009-SU-B9-0023.

       Also, for the Recovery Act JAG grant, 51 of the 122 (or 42 percent)
reporting subrecipients showed zero as the total sub-award funds disbursed
as of December 31, 2009. The 51 sub-awards total $7,940,807 and had
start dates between July 1, 2009, and August 31, 2009.27 The LCLE staff
should determine whether these 51 subrecipients have implemented their
programs.28 The OJP Financial Guide states that that if a project is not
operational within 60 and 90 days of the original start date of the award
period, the subrecipient must report by letter to the LCLE the steps taken to
initiate the project, the reasons for delay, and the expected revised start
date. If subrecipient programs are not operational within 90 days, then
LCLE may cancel the sub-award, redistribute the funds, or extend the
project under special circumstances. We asked LCLE if they asked those
subrecipients whether their programs were operational because there were
no reported disbursements as of December 31, 2009. An LCLE official told
us that calls were placed to subrecipients that did not begin their programs

       27
          See Appendix IV for the 51 subrecipients. We identified only the subrecipients with
zero disbursements as of December 31, 2009, for the 2009-SU-B9-0023 grant, but the LCLE
should follow up with all JAG subrecipients to ensure their programs are operational.
       28
         An LCLE official told us subrecipients with sub-awards $40,000 or less may report
expenditures quarterly at the latest and subrecipients with sub-awards greater than $40,000
must report expenditures monthly for reimbursement.

                                             27 

within the first 60 days, but LCLE did not record a log of these calls. The
LCLE should obtain written letters from all subrecipients that have not
implemented their programs within 60 and 90 days.

       The LCLE properly made sub-awards for allowable programs according
to the JAG purpose areas. However, as discussed in the Reporting section,
the LCLE relied upon subrecipients’ progress reporting to report its program
performance to OJP. The LCLE did not verify information submitted by
subrecipients for its performance reporting. Because the LCLE did not verify
this information included in its performance reports, we were not able to
determine how well the LCLE is accomplishing the goals and objectives for
Grant Numbers 2008-DJ-BX-0026, 2008-DJ-BX-0751, and
2009-SU-B9-0023.

Conclusion

      We identified no findings in the areas of cash management, program
income, or supplanting. There were minor deficiencies and needed
improvement in the areas of grant requirements, internal controls, grant
expenditures, and financial reporting. We identified $6,972 in unsupported
costs that the LCLE reimbursed to subrecipients. Our major areas of findings
were related to the management of subrecipients, progress reporting, and
program performance and accomplishments. The LCLE should document
and complete thorough monitoring of on-site visits, coordinate its monitoring
and auditing efforts, ensure accurate submission of progress reports, ensure
implementation of all sub-awards, and establish baseline data to measure
program progress and accomplishments for each JAG award.

Recommendations

      OJP should ensure that the:

   1. LCLE remedies the $6,972 in questioned costs for unsupported 

      expenditures. 


   2. LCLE properly approves eligible sole source providers as requested by
      subrecipients.

   3. LCLE staff receives training to complete thorough and accurate 

      monitoring reports. 


   4. LCLE’s program and fiscal staff coordinate their duties to ensure 

      adequate coverage of monitoring reviews and audits. 



                                      28 

5. LCLE completes separate annual progress reports for all JAG awards.

6. LCLE develops a method to verify a sample of the quarterly progress 

   reports to supporting documentation submitted by subrecipients.


7. LCLE is able to identify the performance data submitted in the
   Performance Management Tool by each subrecipient to allow the LCLE
   staff to trace the data to supporting documentation.

8. LCLE submits the Recovery Act reports with supported, consistent, and
   complete data for all subrecipients.

9. LCLE identifies baseline data to measure program performance for 

   each open JAG award. 


10. LCLE obtains written letters as required with plans for initiation or
    explanation for delay from all JAG subrecipients when their programs
    are not operational within 60 and 90 days of the original start date of
    the award period.




                                    29 

                                                                  APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether costs claimed
under these grants were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. The objective of our audit was to review performance in the following
areas: (1) grant requirements; (2) internal control environment; (3) cash
management; (4) program income; (5) grant expenditures; (6) supplanting;
(7) management of subrecipients; (8) Financial Status Reports (FSR),
Progress Reports, and Recovery Act Reports; and (9) program performance
and accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit scope covered the Recovery Act JAG (2009-SU-B9-0023)
and the most recent JAG awards (2008-DJ-BX-0026 and 2008-DJ-BX-0751)
that had sufficient expenditures to test both grantee and subrecipient
transactions. We analyzed the expenditure reports for each grant 2006
through 2009 as listed below and decided the 2008 grants and 2009
Recovery grant had the most current and sufficient set of expenditures to
test. As shown in Exhibit 6, the LCLE incurred the following number of
transactions and amount in expenditures as of November 16, 2009:

           EXHIBIT 6: THE LCLE’S GRANT EXPENDITURES

              Grant             Total          Total
              Award             Transactions   Expenditures
              2006-DJ-BX-0037          1,808         $3,508,654
              2007-DJ-BX-0094          1,151          3,629,092
              2008-DJ-BX-0026            182            915,639
              2008-DJ-BX-0751              2              5,625
              2009-DJ-BX-0732              0                  0
              2009-SU-B9-0023            511          2,694,268
              Total                   3,654       $10,753,278
             Source: LCLE




                                     30
      We reviewed the transactions for JAG Grant Numbers
2008-DJ-BX-0026, 2008-DJ-BX-0751, and 2009-SU-B9-0023. Excluding
subrecipient and payroll transactions, there were 90 grantee expenditure
transactions for the 2009 Recovery Grant. There were a combined 184
subrecipient transactions for the 2008 grants and 83 subrecipient
transactions for the 2009 Recovery grant. Therefore, we selected 110
sample expenditures to include 55 samples from the 2008 grants
combined and 2009 Recovery grant respectively.

     Our audit concentrated on, but was not limited to, the period
October 1, 2007, through December 31, 2009, for Grant Numbers
2008-DJ-BX-0026, 2008-DJ-BX-0751, and 2009-SU-B9-0023. The LCLE
drew down the total award amounts of $1,889,749 by October 1, 2008,
$175,760 by February 19, 2009, and $21,400,860 by August 18, 2009,
respectively.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and the award
documents.

       In conducting our audit, we performed sample testing in five areas,
which were grant expenditures, including payroll; management of
subrecipients; FSRs; Progress Reports; and Recovery Act Reports. In this
effort, we employed a judgmental sampling design to obtain broad exposure
to numerous facets of the grants reviewed, such as dollar amounts or
expenditure category. For Grant Numbers 2008-DJ-BX-0026 and
2008-DJ-BX-0751, we identified samples of 55 grant expenditures, 10 FSRs,
and the Annual Progress Report for the period December 31, 2008. For
Grant Number 2009-SU-B9-0023, we identified samples of 55 grant
expenditures, the September 30, 2009, Performance Management Tool
Report, and 1 of 2 Recovery Act Reports. Additionally, we reviewed 9 of 28
LCLE employees’ timesheets and payroll covering 2 pay periods; 5 audits
and 10 monitoring reviews; and the only 2 FSRs. This non-statistical sample
design does not allow for projection of the test results to the universe from
which the samples were selected.

      In addition, we assessed the grantee’s monitoring of subrecipients;
reviewed the timeliness and accuracy of FSRs, Progress Reports, and
Recovery Act Reports; and evaluated performance to grant objectives.
However, we did not test the reliability of the financial management system
as a whole and reliance on computer based data was not significant to our
objectives.


                                     31 

                                                                         APPENDIX II

                  GRANT NUMBER 2008-DJ-BX-0026
                      ALLOCATION OF FUNDS

Number of       Subaward    Name of          Byrne JAG
Subrecipients   Number      Subrecipient     Purpose Area   Program Area       Amount
                                             Law            Multi-
                            Claiborne Parish Enforcement    Jurisdictional
      1         B08-1-001   Sheriff's Office Programs       Task Force            $17,478
                                             Law            Multi-
                            DeSoto Parish    Enforcement    Jurisdictional
      2         B08-1-002   Sheriff's Office Programs       Task Force            $38,168
                                             Law            Multi-
                            Lincoln Parish   Enforcement    Jurisdictional
      3         B08-1-003   Sheriff's Office Programs       Task Force            $28,697
                                             Law            Multi-
                            City of          Enforcement    Jurisdictional
      4         B08-1-004   Natchitoches     Programs       Task Force            $26,486
                                             Law            Multi-
                            Webster Parish Enforcement      Jurisdictional
      5         B08-1-005   Sheriff's Office Programs       Task Force            $21,439
                                             Law            Multi-
                                             Enforcement    Jurisdictional
      6         B08-2-001   Town of Bernice Programs        Task Force             $6,908
                                             Law
                            Caldwell Parish Enforcement     Clandestine Lab
      7         B08-2-002   Sheriff's Office Programs       Eradication            $3,184
                            East Carroll     Law
                            Parish Sheriff's Enforcement    K-9 Narcotics
      8         B08-2-003   Office           Programs       Unit                   $2,699
                                             Law            Multi-
                            Franklin Parish Enforcement     Jurisdictional
      9         B08-2-004   Sheriff's Office Programs       Task Force            $16,162
                                             Law
                            Jackson Parish   Enforcement    Clandestine Lab
      10        B08-2-005   Sheriff's Office Programs       Eradication            $4,589
                            Morehouse        Law            Multi-
                            Parish Sheriff's Enforcement    Jurisdictional
      11        B08-2-006   Office           Programs       Task Force             $9,226
                                             Law            Multi-
                            City of West     Enforcement    Jurisdictional
      12        B08-2-007   Monroe           Programs       Task Force            $44,492
                                             Law
                            Tensas Parish    Enforcement
      13        B08-2-008   Sheriff's Office Programs       Criminal Patrols       $1,871
                                             Law
                            Madison Parish Enforcement
      14        B08-2-009   Sheriff's Office Programs       Criminal Patrols       $3,969
                                             Law            Multi-
                            Avoyelles Parish Enforcement    Jurisdictional
      15        B08-3-001   Sheriff's Office Programs       Task Force            $17,813




                                           32 

Number of       Subaward    Name of           Byrne JAG
Subrecipients   Number      Subrecipient      Purpose Area      Program Area       Amount
                                              Law               Integrated
                            Catahoula Parish Enforcement        Criminal
      16        B08-3-002   Sheriff's Office  Programs          Apprehension          $10,508
                                              Law               Multi-
                            Concordia Parish Enforcement        Jurisdictional
      17        B08-3-003   Sheriff's Office  Programs          Task Force            $11,358
                                              Law               Multi-
                            Grant Parish      Enforcement       Jurisdictional
      18        B08-3-004   Sheriff's Office  Programs          Task Force            $11,358
                                              Law               Multi-
                            LaSalle Parish    Enforcement       Jurisdictional
      19        B08-3-005   Sheriff's Office  Programs          Task Force             $5,263
                                              Law
                            City of           Enforcement
      20        B08-3-006   Alexandria        Programs          Criminal Patrols      $24,570
                                              Law               Multi-
                            Vernon Parish     Enforcement       Jurisdictional
      21        B08-3-007   Sheriff's Office  Programs          Task Force            $22,770
                                              Law
                            Winn Parish       Enforcement       K-9 Narcotics
      22        B08-3-008   Sheriff's Office  Programs          Unit                   $9,938
                                              Law               Multi-
                            Acadia Parish     Enforcement       Jurisdictional
      23        B08-4-001   Sheriff's Office  Programs          Task Force             $5,682
                                              Law               Integrated
                                              Enforcement       Criminal
      24        B08-4-002   City of Crowley Programs            Apprehension                $0
                                              Law
                                              Enforcement       K-9 Narcotics
      25        B08-4-003   City of Rayne     Programs          Unit                        $0
                            Evangeline        Law               Multi-
                            Parish Sheriff's Enforcement        Jurisdictional
      26        B08-4-004   Office            Programs          Task Force             $5,682
                                              Law
                            City of Ville     Enforcement       Street Sales
      27        B08-4-005   Platte            Programs          Disruption             $5,682
                                              Law               Multi-
                            Iberia Parish     Enforcement       Jurisdictional
      28        B08-4-006   Sheriff's Office  Programs          Task Force             $5,682
                            16th Judicial                       Differentiated
                            District          Prosecution and   Case
      29        B08-4-007   Attorney's Office Court Programs    Management             $5,682
                                              Law
                            Lafayette Parish Enforcement        Street Sales
      30        B08-4-008   Sheriff's Office  Programs          Disruption             $5,682




                                           33 

Number of       Subaward    Name of            Byrne JAG
Subrecipients   Number      Subrecipient       Purpose Area     Program Area       Amount
                                               Law
                                               Enforcement
      31        B08-4-009   City of Carenco    Programs         Criminal Patrols       $5,682
                            Lafayette          Law
                            Consolidated       Enforcement
      32        B08-4-010   Government         Programs         Criminal Patrols       $5,682
                                               Law
                                               Enforcement      Street Sales
      33        B08-4-011   City of Scott      Programs         Disruption             $5,682
                            St. Landry         Law
                            Parish Sheriff's   Enforcement      Street Sales
      34        B08-4-012   Office             Programs         Disruption             $5,682

                            27th Judicial
                            District          Prosecution and   Court Delay
      35        B08-4-013   Attorney's Office Court Programs    Reduction              $5,679
                                              Law
                                              Enforcement
      36        B08-4-014   City of Eunice    Programs          Criminal Patrols       $5,682
                                              Law               Integrated
                            City of           Enforcement       Criminal
      37        B08-4-015   Opelousas         Programs          Apprehension           $5,682
                                              Law
                            St. Martin Parish Enforcement       Drug Knock And
      38        B08-4-016   Sheriff's Office  Programs          Talk Program           $5,682
                                              Law
                            City of Breaux    Enforcement       Community
      39        B08-4-017   Bridge            Programs          Policing               $5,682
                                              Planning
                                              Evaluation, and
                                              Technology        Evidence /
                            City of St.       Improvement       Records
      40        B08-4-018   Martinville       Programs          Preservation           $5,682
                                              Law               Multi-
                            St. Mary Parish Enforcement         Jurisdictional
      41        B08-4-019   Sheriff's Office  Programs          Task Force             $5,682
                                              Law               Integrated
                            Vermillion Parish Enforcement       Criminal
      42        B08-4-020   Sheriff's Office  Programs          Apprehension                $0
                                              Law
                                              Enforcement
      43        B08-4-021   City of Abbeville Programs          Criminal Patrols       $5,682




                                           34 

Number of       Subaward     Name of             Byrne JAG
Subrecipients   Number       Subrecipient        Purpose Area      Program Area       Amount
                                                 Law
                                                 Enforcement
      44        B08-4-022    Town of Erath       Programs          Criminal Patrols       $5,685
                                                 Law
                                                 Enforcement       Street Sales
      45        B08-4-023    City of Rayne       Programs          Disruption             $5,682
                                                 Planning
                                                 Evaluation, and
                                                 Technology        Information
                                                 Improvement       Systems
      46        B08-4-024    City of Crowley     Programs          Upgrade                $5,682
                                                 Law               Integrated
                                                 Enforcement       Criminal
      47        B08-4-025    City of Rayne       Programs          Apprehension                $0
                                                 Law
                             Vermillion Parish   Enforcement       Street Sales
      48        B08-4-026    Sheriff's Office    Programs          Disruption             $5,682
                                                 Drug Treatment
                             18th Judicial       and
                             District Court,     Enforcement
      49        B08-05-001   Division A          Programs          Drug Screening         $3,263
                             West Baton          Law               Multi-
                             Rouge Parish        Enforcement       Jurisdictional
      50        B08-05-002   Sheriff's Office    Programs          Task Force            $15,776
                             West Baton          Prevention and    Anti-Terrorist
                             Rouge Parish        Education         Training
      51        B08-05-003   Sheriff's Office    Programs          Program               $11,714
                                                 Law               Multi-
                             Iberville Parish    Enforcement       Jurisdictional
      52        B08-05-004   Sheriff's Office    Programs          Task Force            $17,818
                                                 Drug Treatment
                                                 and
                             Plaquemine City     Enforcement
      53        B08-05-005   Court               Programs          Drug Screening         $1,774
                                                 Law               Multi-
                             Ascension Parish    Enforcement       Jurisdictional
      54        B08-05-006   Sheriff's Office    Programs          Task Force            $10,467
                                                 Planning
                                                 Evaluation, and
                                                 Technology
                                                 Improvement       Enhance Crime
      55        B08-05-007   City of Gonzales    Programs          Scene Unit             $2,780




                                             35 

Number of       Subaward     Name of           Byrne JAG
Subrecipients   Number       Subrecipient      Purpose Area        Program Area       Amount
                             East Baton        Law                 Targeting
                             Rouge Sheriff's   Enforcement         Violent
      56        B08-05-008   Office            Programs            Criminals             $15,704
                                               Law                 Targeting
                             City of Baton     Enforcement         Violent
      57        B08-05-009   Rouge             Programs            Criminals             $19,277
                                               Law                 Multi-
                                               Enforcement         Jurisdictional
      58        B08-05-010   City of Baker     Programs            Task Force                  $0
                             West Feliciana    Law
                             Parish Sheriff's Enforcement
      59        B08-05-011   Office            Programs            Criminal Patrols       $5,306
                                               Law
                             Town of St.       Enforcement
      60        B08-05-012   Francisville      Programs            Criminal Patrols       $1,599
                             St. Helena        Law
                             Parish Sheriff's Enforcement
      61        B08-05-013   Office            Programs            Criminal Patrols       $1,980
                             Tangipahoa        Law                 Multi-
                             Parish Sherriff's Enforcement         Jurisdictional
      62        B08-05-014   Office            Programs            Task Force            $22,218
                                               Law                 Multi-
                             City of           Enforcement         Jurisdictional
      63        B08-05-015   Hammond           Programs            Task Force            $10,665
                             Washington        Law                 Multi-
                             Parish Sheriff's Enforcement          Jurisdictional
      64        B08-05-016   Office            Programs            Task Force             $9,323

                             22nd Judicial
                             District            Prosecution and   Career Criminal
      65        B08-05-017   Attorney's Office   Court Programs    Prosecution           $19,901
                             East Baton          Law               Multi-
                             Rouge Sheriff's     Enforcement       Jurisdictional
      66        B08-05-018   Office              Programs          Task Force            $19,995
                             Beauregard          Law               Multi-
                             parish Sheriff's    Enforcement       Jurisdictional
      67        B08-6-001    Office              Programs          Task Force            $43,958
                                                 Law               Multi-
                             Allen Parish        Enforcement       Jurisdictional
      68        B08-6-002    Sheriff's Office    Programs          Task Force            $22,570
                                                 Law
                             City of Lake        Enforcement       Crime Activity
      69        B08-6-003    Charles             Programs          Patrol                $19,034




                                            36 

Number of       Subaward    Name of            Byrne JAG
Subrecipients   Number      Subrecipient       Purpose Area   Program Area       Amount
                                             Law
                            Calcasieu Parish Enforcement      Street Sales
      70        B08-6-004   Sheriff's Office Programs         Disruption            $19,033
                            Jefferson Davis  Law
                            Parish Sheriff's Enforcement      Street Reduction
      71        B08-6-005   Office           Programs         of Violent Crime       $8,182
                                             Law
                                             Enforcement      Street Sales
      72        B08-6-006   Town of Kinder Programs           Disruption             $8,182
                                             Law              Multi-
                                             Enforcement      Jurisdictional
      73        B08-7-001   City of Gretna   Programs         Task Force            $28,446
                                             Law              Multi-
                            Jefferson Parish Enforcement      Jurisdictional
      74        B08-7-002   Sheriff's Office Programs         Task Force            $28,446
                                              Drug Treatment
                            24th Judicial     and
                            District          Enforcement    Pretrial
      75        B08-7-003   Attorney's Office Programs       Intervention           $28,446


                                             Law              Targeting
                                             Enforcement      Computer &
      76        B08-7-004   City of Kenner   Programs         High Tech Crime        $6,444
                                             Law
                            City of          Enforcement
      77        B08-7-005   Westwego         Programs         Criminal Patrols       $6,444
                                             Law
                                             Enforcement      Street Sales
      78        B08-7-006   City of Harahan Programs          Disruption             $3,241
                                             Law              Multi-
                            Lafourche Parish Enforcement      Jurisdictional
      79        B08-7-007   Sheriff's Office Programs         Task Force             $7,860
                            St. John the       Law            Multi-
                            Baptist Parish     Enforcement    Jurisdictional
      80        B08-7-008   Sheriff's Office   Programs       Task Force             $6,050
                            St. Tammany        Law            Multi-
                            Parish Sheriff's   Enforcement    Jurisdictional
      81        B08-7-009   Office             Programs       Task Force            $20,069
                            Terrebonne         Law            Multi-
                            Parish Sheriff's   Enforcement    Jurisdictional
      82        B08-7-010   Office             Programs       Task Force            $15,040




                                           37 

Number of       Subaward    Name of            Byrne JAG
Subrecipients   Number      Subrecipient       Purpose Area      Program Area       Amount
                            Plaquemines       Law
                            Parish Sheriff's  Enforcement        Street Sales
      83        B08-7-011   Office            Programs           Disruption             $5,322
                                              Planning
                                              Evaluation, and
                            29th Judicial     Technology         Information
                            District          Improvement        Systems
      84        B08-7-012   Attorney's Office Programs           Upgrade                $1,704

                                              Drug Treatment
                            32nd Judicial     and            Continuing
                            District          Enforcement    Aftercare
      85        B08-7-013   Attorney's Office Programs       Services                   $6,300
                            Terrebonne         Law               Multi-
                            Parish             Enforcement       Jurisdictional
      86        B08-7-014   Consolidated       Programs          Task Force            $15,815
                                               Law
                            City of            Enforcement
      87        B08-7-015   Covington          Programs          Criminal Patrols            $0
                            22nd Judicial
                            District          Prosecution and    Career Criminal
      88        B08-7-016   Attorney's Office Court Programs     Prosecution                 $0
                                              Planning
                                              Evaluation, and
                            25th Judicial     Technology         Information
                            District          Improvement        Systems
      89        B08-7-017   Attorney's Office Programs           Upgrade                $1,920
                                               Planning
                                               Evaluation, and
                            Louisiana          Technology        Criminal
                            Sheriff's          Improvement       Records
      90        B08-8-001   Association        Programs          Improvement          $200,000
                                               Planning
                            Louisiana          Evaluation, and
                            Commission on      Technology        Criminal
                            Law                Improvement       Records
      91        B08-8-002   Enforcement        Programs          Improvement          $250,000
                                               Planning
                            Louisiana          Evaluation, and
                            Commission on      Technology        Enhance
                            Law                Improvement       Information
      92        B08-8-003   Enforcement        Programs          Technology                  $0




                                           38 

Number of        Subaward        Name of              Byrne JAG
Subrecipients    Number          Subrecipient         Purpose Area      Program Area       Amount


                                 Iberia Parish        Law
                                 Sheriff's            Enforcement
      93         B08-8-004       Office29             Programs          Criminal Patrols            $0

                                                      Law
                                 City of New          Enforcement
      94         B08-9-001       Orleans              Programs          Criminal Patrols     $110,846

                                                      Drug
                                 Orleans Parish       Treatment and
                                 Criminal             Enforcement
      95         B08-9-002       District             Programs          Drug Screening        $60,000

                                 Orleans Parish       Law
                                 Criminal             Enforcement       Crime Activity
      96         B08-9-003       Sheriff's Office     Programs          Patrol                $60,000

                                                      Planning,
                                 Louisiana            Evaluation, and
                                 Commission on        Technology
                                 Law                  Improvement
                 ADM01           Enforcement          Programs          Administrative       $188,975


                                                                        Unallocated30         $63,912


                                                                        Total              $1,889,749
Source: LCLE




       29
         The LCLE subawarded $20,814 to the Iberia Sheriff's Office using interest dollars
earned on the drawdown of the grant funds.
       30
         The LCLE plans to subaward $60,353 of the unallocated funds to a subrecipient to
enhance its grants system or to supplement the criminal records improvement program.
The LCLE currently does not have specific plans for the remaining $3,559 unallocated funds.
The funds will be passed through as a sub-award in the future.


                                               39 

                                                                          APPENDIX III

                  GRANT NUMBER 2008-DJ-BX-0751
                      ALLOCATION OF FUNDS

Number of       Subaward    Name of           Byrne JAG
Subrecipients   Number      Subrecipient      Purpose Area       Program Area       Amount
                                              Law                Multi-
                            Bienveille Parish Enforcement        Jurisdictional
      1         B81-1-001   Sheriff's Office  Programs           Task Force           $12,302
                                               Law
                            West Carroll       Enforcement
      2         B81-2-001   Parish Sheriff     Programs          Criminal Patrols      $8,659

                            9th Judiciail      Prosecution and
      3         B81-3-001   District Court     Court Programs    Drug Court            $5,282
                                               Planning,
                                               Evaluation, and
                                               Technology        Integrated
                                               Improvement       Criminal
      4         B81-3-002   City of Bunkie     Programs          Apprehension          $5,282
                                               Law
                                               Enforcement
      5         B81-4-001   City of Crowley    Programs          Criminal Patrols     $11,626
                            Livingston
                            Parish Sheriff's   Law Enforcment    K-9 Narcotics
      6         B81-5-001   Department         Programs          Unit                 $17,274
                                               Law
                                               Enforcement       Street Sales
      7         B81-6-001   Town of Kinder     Programs          Disruption            $5,625
                            Jefferson Davis    Law
                            Parish Sheriff's   Enforcement       Street Reduction
      8         B81-6-002   Office             Programs          of Violent Crime      $5,625
                                               Planning,
                                               Evaluation, and
                            St. Bernard        Technology        Integrated
                            Parish Sheriff's   Improvement       Criminal
      9         B81-7-001   Office             Programs          Apprehension         $17,584
                                               Planning,
                            Louisiana          Evaluation, and
                            Commission on      Technology        Criminal
                            Law                Improvement       Records
      10        B81-8-001   Enforcement        Programs          Improvement                 $0




                                         40 

Number of        Subaward         Name of              Byrne JAG
Subrecipients    Number           Subrecipient         Purpose Area      Program Area     Amount


                                                       Planning,
                                                       Evaluation, and
                                  Louisiana            Technology        Criminal
                                  Sheriff's            Improvement       Records
       11        B81-8-002        Association          Programs          Improvement       $23,728

                                                       Drug
                                                       Treatment and     Narcotics
                                  City of New          Enforcement       Hotline Task
       12        B81-9-001        Orleans              Programs          Force             $21,470


                                                       Planning,
                                  Louisiana            Evaluation, and
                                  Commission on        Technology
                                  Law                  Improvement
                 B81-8-ADM        Enforcement          Programs          Administrative    $17,576

                                                                         Unallocated31     $23,727

                                                                         Total            $175,760
Source: LCLE




       31
          LCLE plans to subaward the unallocated $23,727 to a subrecipient for criminal
records improvement.

                                                41 

                                                                                   APPENDIX IV

                   GRANT NUMBER 2009-SU-B9-0023
                      ALLOCATION OF FUNDS32
Number of       Subaward        Name of            Byrne JAG
Subrecipients   Number          Subrecipient       Purpose Area      Program Area       Amount

                                14th Judicial      Prosecution and   Court Delay
       1        B82-8-001       District Court     Court Programs    Reduction             $137,622
                                                   Prevention and
                                15th Judicial      Education         Delinquency
       2        B82-8-002       District Court     Programs          Prevention             $40,310
                                                   Planning
                                                   Evaluation, and
                                                   Technology        Criminal Justice
                                16th Judicial      Improvement       Technology
       3        B82-8-003       District Court     Programs          Upgrades               $59,204

                                19th Judicial      Prosecution and
       4        B82-8-004       District Court     Court Programs Drug Court               $131,700

                                22nd Judicial      Prosecution and
       5        B82-8-005       District Court     Court Programs Drug Court               $150,300

                                24th Judicial      Prosecution and Court Delay
       6        B82-8-006       District Court     Court Programs Reduction                 $81,991

                                26th Judicial      Prosecution and Court Delay
       7        B82-8-007       District Court     Court Programs Reduction                 $32,000

                                30th Judicial      Prosecution and Court Delay
       8        B82-8-008       District Court     Court Programs Reduction                 $82,608
                                                   Drug Treatment
                                                   and
                                3rd Judicial       Enforcement
       9        B82-8-009       District Court     Programs        Drug Screening           $72,600

                                Caddo Parish       Prosecution and Court Delay
       10       B82-8-010       Commission         Court Programs Reduction                 $56,834

                                Calcasieu Parish   Prosecution and
       11       B82-8-011       Police Jury        Court Programs Drug Court               $113,552
                                East Baton
                                Rouge Juvenile     Prosecution and
       12       B82-8-012       Court              Court Programs Drug Court                $82,682
                                                   Prevention and
                                Orleans Parish     Education       Pretrial
       13       B82-8-013       Juvenile Court     Programs        Intervention            $198,991




       32
            The 51 subrecipients with zero disbursements as of December 31, 2009, are in bold
text listed in the column “Number of Subrecipients.”

                                                 42
Number of       Subaward    Name of          Byrne JAG
Subrecipients   Number      Subrecipient     Purpose Area       Program Area       Amount
                                              Planning
                                              Evaluation, and
                                              Technology
                            Acadiana Crime Improvement          Crime Lab
      14        B82-8-014   Lab               Programs          Upgrade               $130,048
                                              Law
                            North Louisiana Enforcement
      15        B82-8-015   Crime Lab         Programs          Criminal Patrols      $145,595
                                              Law
                                              Enforcement
      16        B82-8-016   City of Abbeville Programs          Criminal Patrols       $83,084
                                             Law                Targeting
                                             Enforcement        Violent
      17        B82-8-017   Town of Addis    Programs           Criminals             $225,726
                                             Law
                                             Enforcement        Narcotics
      18        B82-8-018   City of Baker    Programs           Response Team         $115,667
                                             Planning
                                             Evaluation, and
                                             Technology         Information
                                             Improvement        Systems
      19        B82-8-019   City of Bogalusa Programs           Upgrade                $39,000
                                             Law
                                             Enforcement
      20        B82-8-020   City of Bunkie   Programs           Criminal Patrols       $83,084
                                             Law
                            Town of Church   Enforcement        Street Sales
      21        B82-8-021   Point            Programs           Disruption             $49,040
                                             Planning
                                             Evaluation, and
                                             Technology         Criminal Justice
                                             Improvement        Technology
     22         B82-8-022   Town of Colfax   Programs           Upgrades               $47,750
                                             Law
                            City of          Enforcement
     23         B82-8-023   Covington        Programs           Criminal Patrols      $120,342
                                             Law
                            City of Denham Enforcement
      24        B82-8-024   Springs          Programs           Criminal Patrols       $97,734
                                             Law
                                             Enforcement        Street Sales
      25        B82-8-025   City of DeQuincy Programs           Disruption             $30,500




                                           43 

Number of       Subaward    Name of           Byrne JAG
Subrecipients   Number      Subrecipient      Purpose Area       Program Area       Amount
                                              Law
                            Village of        Enforcement
      26        B82-8-026   Dodson            Programs           Criminal Patrols       $21,508
                                               Law
                                               Enforcement
      27        B82-8-027   Village of Epps Programs             Criminal Patrols       $21,308
                                               Law               Targeting
                                               Enforcement       Violent
      28        B82-8-028   Town of Erath      Programs          Criminals             $105,109
                                               Law
                                               Enforcement
      29        B82-8-029   City of Eunice     Programs          Criminal Patrols      $142,040
                                               Law
                                               Enforcement       Community
      30        B82-8-030   Town of Ferriday Programs            Policing               $64,241
                                               Law
                                               Enforcement
      31        B82-8-031   Village of Fisher Programs           Criminal Patrols       $85,996
                                               Planning
                                               Evaluation, and
                                               Technology        Criminal
                                               Improvement       Records
      32        B82-8-032   Village of Florien Programs          Improvement           $199,673
                                               Planning
                                               Evaluation, and
                                               Technology
                                               Improvement       Enhance Crime
      33        B82-8-033   City of Franklin Programs            Scene Unit            $122,460
                                              Law
                            Village of French Enforcement
      34        B82-8-034   Settlement        Programs           Criminal Patrols       $49,298
                                              Law
                            Village of        Enforcement
      35        B82-8-035   Georgetown        Programs           Criminal Patrols       $21,708
                                             Planning
                                             Evaluation, and
                                             Technology          Criminal
                                             Improvement         Records
      36        B82-8-036   City of Gonzales Programs            Improvement           $149,357




                                           44 

Number of       Subaward    Name of          Byrne JAG
Subrecipients   Number      Subrecipient     Purpose Area      Program Area       Amount
                                             Planning
                                             Evaluation, and
                                             Technology        Criminal Justice
                            Town of          Improvement       Technology
      37        B82-8-037   Gramercy         Programs          Upgrades               $42,458
                                             Law
                            Town of Grand    Enforcement       Community
     38         B82-8-038   Isle             Programs          Policing               $40,152
                                             Law
                            Village of       Enforcement       Street Sales
      39        B82-8-039   Grayson          Programs          Disruption             $53,000
                                             Planning
                                             Evaluation, and
                                             Technology        Criminal Justice
                                             Improvement       Technology
     40         B82-8-040   City of Gretna   Programs          Upgrades              $169,238
                                             Law
                                             Enforcement       Community
     41         B82-8-041   City of Harahan Programs           Policing               $48,003
                                             Planning
                                             Evaluation, and
                                             Technology        Criminal Justice
                            Town of          Improvement       Technology
      42        B82-8-042   Haughton         Programs          Upgrades               $67,706
                                             Law
                                             Enforcement       Community
      43        B82-8-043   Village of Hodge Programs          Policing               $74,103
                                             Law
                                             Enforcement       Community
     44         B82-8-044   Town of Iowa     Programs          Policing               $75,567
                                             Prevention and
                            Town of Jean     Education         Rural Crime
      45        B82-8-045   Lafitte          Programs          Prevention             $74,506
                                             Planning
                                             Evaluation, and
                                             Technology
                                             Improvement       Enhance Crime
      46        B82-8-046   City of Jennings Programs          Scene Unit             $94,625
                                             Planning
                                             Evaluation, and
                                             Technology        Criminal Justice
                                             Improvement       Technology
     47         B82-8-047   City of Kenner   Programs          Upgrades               $33,774




                                           45 

Number of       Subaward    Name of             Byrne JAG
Subrecipients   Number      Subrecipient        Purpose Area      Program Area       Amount
                                                Law
                            Town of             Enforcement
      48        B82-8-048   Mangham             Programs          Criminal Patrols       $40,000
                                                Planning
                                                Evaluation, and
                                                Technology        Criminal Justice
                                                Improvement       Technology
      49        B82-8-049   Town of Many        Programs          Upgrades              $149,462
                                              Law
                                              Enforcement
     50         B82-8-050   Village of Marion Programs            Criminal Patrols       $21,308
                                              Planning
                                              Evaluation, and
                                              Technology          Criminal Justice
                                              Improvement         Technology
     51         B82-8-051   City of Minden    Programs            Upgrades               $15,929
                                              Law
                                              Enforcement         Crime Activity
     52         B82-8-052   City of Monroe    Programs            Patrol                 $21,308
                                                Law
                            Napoleonville,      Enforcement       Community
      53        B82-8-053   Village of          Programs          Policing              $151,628
                                                Planning
                                                Evaluation, and
                                                Technology        Criminal Justice
                            City of             Improvement       Technology
     54         B82-8-054   Natchitoches        Programs          Upgrades               $70,890
                                                Planning
                                                Evaluation, and
                                                Technology        Criminal Justice
                                                Improvement       Technology
     55         B82-8-055   City of Pineville   Programs          Upgrades               $42,111
                                                Law
                            City of             Enforcement       Community
      56        B82-8-056   Plaquemine          Programs          Policing              $108,959
                                                Planning
                                                Evaluation, and
                                                Technology        Criminal Justice
                                                Improvement       Technology
     57         B82-8-057   Town of Pollock     Programs          Upgrades               $14,298




                                             46 

Number of       Subaward    Name of             Byrne JAG
Subrecipients   Number      Subrecipient        Purpose Area      Program Area       Amount
                                                Planning
                                                Evaluation, and
                                                Technology        Criminal Justice
                            Village of Port     Improvement       Technology
      58        B82-8-058   Vincent             Programs          Upgrades               $49,514
                                                Planning
                                                Evaluation, and
                                                Technology        Criminal Justice
                                                Improvement       Technology
     59         B82-8-059   City of Slidell     Programs          Upgrades              $169,412
                                               Law
                                               Enforcement
      60        B82-8-060   City of Springhill Programs           Criminal Patrols      $107,450
                                               Planning
                            Terrebonne         Evaluation, and
                            Parish             Technology         Criminal Justice
                            Consolidated       Improvement        Technology
     61         B82-8-061   Government         Programs           Upgrades               $99,471
                                                Law
                                                Enforcement
     62         B82-8-062   City of Vidalia     Programs          Criminal Patrols       $96,524
                                              Law
                                              Enforcement
     63         B82-8-063   Town of Walker Programs               Criminal Patrols      $127,145
                                              Law
                            City of West      Enforcement
     64         B82-8-064   Monroe            Programs            Criminal Patrols       $78,304
                                              Law
                            City of           Enforcement
      65        B82-8-065   Westwego          Programs            Criminal Patrols      $155,028
                                              Planning
                                              Evaluation, and
                                              Technology          Criminal Justice
                                              Improvement         Technology
      66        B82-8-066   City of Winnfield Programs            Upgrades               $66,961
                                                Law
                                                Enforcement       K-9 Narcotics
      67        B82-8-067   Town of Wisner      Programs          Unit                  $171,456

                            19th Judicial
                            District          Prosecution and Violent Crime
      68        B82-8-068   Attorney's Office Court Programs Prosecution                $212,418




                                              47 

Number of       Subaward    Name of              Byrne JAG
Subrecipients   Number      Subrecipient         Purpose Area      Program Area       Amount


                            3rd Judicial
                            District          Prosecution and      MDO
     69         B82-8-069   Attorney's Office Court Programs       Prosecution Unit       $50,000
                                              Planning
                                              Evaluation, and
                            9th Judicial      Technology           Criminal
                            District          Improvement          Records
     70         B82-8-070   Attorney's Office Programs             Improvement            $25,000
                                              Planning
                            Louisiana         Evaluation, and
                            District          Technology           Information
                            Attorneys'        Improvement          Systems
     71         B82-8-071   Association       Programs             Upgrade              $1,292,262
                                              Prevention and
                            Orleans Parish    Education            Pretrial
      72        B82-8-072   District Attorney Programs             Intervention          $212,000
                                                 Planning
                                                 Evaluation, and
                                                 Technology        Criminal Justice
                            Acadia Parish        Improvement       Technology
      73        B82-8-073   Sheriff's Office     Programs          Upgrades              $113,435
                                             Law
                            Allen Parish     Enforcement           Drug Knock and
     74         B82-8-074   Sheriff's Office Programs              Talk Program           $19,564
                                             Planning
                                             Evaluation, and
                                             Technology            Evidence /
                            Ascension Parish Improvement           Records
      75        B82-8-075   Sheriff's Office Programs              Preservation           $58,982
                            Assumption       Law
                            Parish Sheriff's Enforcement           Community
      76        B82-8-076   Office           Programs              Policing               $68,558
                                             Planning
                                             Evaluation, and
                            Beauregard       Technology            Criminal Justice
                            Parish Sheriff's Improvement           Technology
      77        B82-8-077   Office           Programs              Upgrades              $105,649
                                             Law
                            Calcasieu Parish Enforcement           Crime Activity
      78        B82-8-078   Sheriff's Office Programs              Patrol                 $84,322




                                               48 

Number of       Subaward    Name of              Byrne JAG
Subrecipients   Number      Subrecipient         Purpose Area      Program Area       Amount
                                                 Law
                            Caldwell Parish      Enforcement
      79        B82-8-079   Sheriff's Office     Programs          Criminal Patrols       $65,000
                                             Law
                            Catahoula Parish Enforcement
      80        B82-8-080   Sheriff's Office Programs              Criminal Patrols      $156,081
                                             Planning
                                             Evaluation, and
                                             Technology            Information
                            Claiborne Parish Improvement           Systems
      81        B82-8-081   Sheriff's Office Programs              Upgrade                $68,855
                                             Corrections and
                                             Community
                            Concordia Parish Corrections           Enhanced Job
      82        B82-8-082   Sheriff's Office Programs              Skills Program        $158,897
                                             Law
                            DeSoto Parish    Enforcement           Community
      83        B82-8-083   Sheriff's Office Programs              Policing               $64,638
                                                 Corrections and
                            East Carroll         Community
                            Parish Sheriff's     Corrections       Reduction of
      84        B82-8-084   Office               Programs          Drugs in Prison       $166,260
                            East Feliciana       Law
                            Parish Sheriff's     Enforcement
     85         B82-8-085   Office               Programs          Criminal Patrols       $68,558
                            Evangeline           Law
                            Parish Sheriff's     Enforcement
      86        B82-8-086   Office               Programs          Criminal Patrols       $76,575
                                                 Law               Correctional
                            Franklin Parish      Enforcement       Surveillance
      87        B82-8-087   Sheriff's Office     Programs          Enhancement           $176,385
                                                 Law
                            Grant Parish         Enforcement
     88         B82-8-088   Sheriff's Office     Programs          Criminal Patrols       $68,558
                                                 Law               Multi-
                            Iberia Parish        Enforcement       Jurisdictional
     89         B82-8-089   Sheriff's Office     Programs          Task Force             $73,736
                                                 Law
                            Iberville Parish     Enforcement
     90         B82-8-090   Sheriff's Office     Programs          Criminal Patrols       $41,921




                                               49 

Number of       Subaward    Name of              Byrne JAG
Subrecipients   Number      Subrecipient         Purpose Area      Program Area       Amount
                                                 Law
                            Jackson Parish       Enforcement       K-9 Narcotics
      91        B82-8-091   Sheriff's Office     Programs          Unit                  $146,547
                            Jefferson Davis      Law
                            Parish Sheriff's     Enforcement       Street Sales
      92        B82-8-092   Office               Programs          Disruption            $168,872
                                                 Planning
                                                 Evaluation, and
                            Louisiana            Technology        Criminal
                            Sheriffs'            Improvement       Records
     93         B82-8-093   Association          Programs          Improvement          $1,133,667
                                             Law
                            Lafourche Parish Enforcement
     94         B82-8-094   Sheriff's Office Programs              Criminal Patrols      $130,408
                                             Planning
                                             Evaluation, and
                                             Technology            Criminal Justice
                            LaSalle Parish   Improvement           Technology
      95        B82-8-095   Sheriff's Office Programs              Upgrades               $87,118
                                             Planning
                                             Evaluation, and
                                             Technology            Criminal Justice
                            Lincoln Parish   Improvement           Technology
     96         B82-8-096   Sheriff's Office Programs              Upgrades              $143,743
                                             Planning
                                             Evaluation, and
                                             Technology            Criminal Justice
                            Madison Parish Improvement             Technology
      97        B82-8-097   Sheriff's Office Programs              Upgrades               $96,396
                            Natchitoches     Law
                            Parish Sheriff's Enforcement
      98        B82-8-098   Office           Programs              Criminal Patrols      $139,883
                                             Corrections and
                            Orleans Parish   Community             Correctional
                            Criminal         Corrections           Contraband
      99        B82-8-099   Sheriff's Office Programs              Control                $97,155
                                             Planning
                                             Evaluation, and
                                             Technology
                            Ouachita Parish Improvement            Prison
     100        B82-8-100   Sheriff's Office Programs              Improvement            $82,185




                                               50 

Number of       Subaward    Name of            Byrne JAG
Subrecipients   Number      Subrecipient       Purpose Area      Program Area       Amount
                                               Planning
                                               Evaluation, and
                            Plaquemines        Technology        Criminal Justice
                            Parish Sheriff's   Improvement       Technology
     101        B82-8-101   Office             Programs          Upgrades              $151,852
                                               Planning
                                               Evaluation, and
                                               Technology        Criminal Justice
                            Richland Parish    Improvement       Technology
     102        B82-8-102   Sheriff's Office   Programs          Upgrades              $105,646
                            St. Bernard        Law
                            Parish Sheriff's   Enforcement
     103        B82-8-103   Office             Programs          Criminal Patrols       $68,558
                            St. Helena        Law
                            Parish Sheriff's  Enforcement
     104        B82-8-104   Department        Programs           Criminal Patrols       $46,706
                                              Planning
                                              Evaluation, and
                                              Technology         Criminal Justice
                            St. James Parish Improvement         Technology
     105        B82-8-105   Sheriff's Office  Programs           Upgrades              $126,766
                                              Planning
                                              Evaluation, and
                            St. John Baptist Technology          Criminal Justice
                            Parish Sheriff's Improvement         Technology
     106        B82-8-106   Office            Programs           Upgrades              $157,941
                                              Planning
                                              Evaluation, and
                            St. Landry        Technology         Criminal Justice
                            Parish Sheriff's Improvement         Technology
     107        B82-8-107   Office            Programs           Upgrades              $128,163
                                              Planning
                                              Evaluation, and
                                              Technology         Law
                            St. Martin Parish Improvement        Enforcement
     108        B82-8-108   Sheriff's Office  Programs           Training               $74,125
                                              Planning
                                              Evaluation, and
                                              Technology
                            St. Mary Parish Improvement          Enhance Crime
     109        B82-8-109   Sheriff's Office  Programs           Scene Unit             $92,456




                                           51 

Number of       Subaward    Name of              Byrne JAG
Subrecipients   Number      Subrecipient         Purpose Area      Program Area       Amount

                            St. Tammany          Law
                            Parish Sheriff's     Enforcement
     110        B82-8-110   Office               Programs          Criminal Patrols       $46,377
                                                 Law
                            Tensas Parish        Enforcement
     111        B82-8-111   Sheriff's Office     Programs          Criminal Patrols       $94,879
                                                 Planning
                                                 Evaluation, and
                            Terrebonne           Technology        Criminal Justice
                            Parish Sheriff's     Improvement       Technology
     112        B82-8-112   Office               Programs          Upgrades               $69,031
                                                 Law
                            Union Parish         Enforcement       K-9 Narcotics
     113        B82-8-113   Sheriff's Office     Programs          Unit                  $131,649
                                             Planning
                                             Evaluation, and
                                             Technology            Criminal Justice
                            Vermilion Parish Improvement           Technology
     114        B82-8-114   Sheriff's Office Programs              Upgrades              $103,857
                                             Corrections and
                                             Community
                            Vernon Parish    Corrections           Enhanced Job
     115        B82-8-115   Sheriff's Office Programs              Skills Program        $138,611
                            Washington       Law                   Correctional
                            Parish Sheriff's Enforcement           Surveillance
     116        B82-8-116   Office           Programs              Enhancement           $101,801
                                                 Law
                            Webster Parish       Enforcement       Community
     117        B82-8-117   Sheriff's Office     Programs          Policing              $157,089
                                                 Planning
                                                 Evaluation, and
                            West Baton           Technology        Criminal Justice
                            Rouge Parish         Improvement       Technology
     118        B82-8-118   Sheriff's Office     Programs          Upgrades               $80,047
                            West Carroll         Law
                            Parish Sheriff's     Enforcement
     119        B82-8-119   Office               Programs          Criminal Patrols       $21,308
                            West Feliciana       Law
                            Parish Sheriff's     Enforcement
     120        B82-8-120   Office               Programs          Criminal Patrols       $87,311




                                               52 

Number of       Subaward    Name of            Byrne JAG
Subrecipients   Number      Subrecipient       Purpose Area     Program Area       Amount

                                              Planning
                                              Evaluation, and
                                              Technology        Criminal Justice
                            Winn Parish       Improvement       Technology
     121        B82-8-121   Sheriff's Office  Programs          Upgrades               $80,205
                                              Planning
                                              Evaluation, and
                            Louisiana Chiefs' Technology        Law
                            of Police         Improvement       Enforcement
     122        B82-8-122   Association       Programs          Training              $100,000
                            Louisiana         Law
                            Department of     Enforcement       White Collar
     123        B82-8-123   Justice           Programs          Crime                 $200,000

                            Louisiana
                            Department of
                            Public Safety       Corrections and
                            and Corrections   ­ Community
                            Corrections         Corrections     Secure Inmate
     124        B82-8-124   Administration      Programs        Transport             $650,000
                                             Planning
                            Louisiana        Evaluation, and
                            District         Technology         Information
                            Attorneys'       Improvement        Systems
     125        B82-8-125   Association      Programs           Upgrade               $306,637
                                             Drug Treatment
                            Louisiana Office and                Treatment Of
                            of Juvenile      Enforcement        Juvenile
     126        B82-8-126   Justice          Programs           Offenders            $3,100,000
                                                                Differentiated
                            Louisiana Public Prosecution and    Case
     127        B82-8-127   Defender Board Court Programs       Management             $49,454
                                             Planning
                                             Evaluation, and
                            Louisiana        Technology         Criminal
                            Sheriffs'        Improvement        Records
     128        B82-8-128   Association      Programs           Improvement           $500,000




                                           53 

Number of         Subaward        Name of             Byrne JAG
Subrecipients     Number          Subrecipient        Purpose Area      Program Area       Amount


                                  Louisiana
                                  Department of
                                  Public Safety
                                  and Corrections     Law
                                  - Office of State   Enforcement       Apprehension
     129          B82-8-129       Police              Programs          Enhancement           $800,000
                                                      Prosecution
                                  Louisiana           and Court
     130          B82-8-130       Supreme Court       Programs          Drug Court            $200,000

                                                      Law
                                  Town of             Enforcement
     131          B82-8-131       Waterproof          Programs          Criminal Patrols      $142,862


                                                      Planning
                                  Louisiana           Evaluation, and
                                  Commission on       Technology
                                  Law                 Improvement
                  B82-8-ADM       Enforcement         Programs          Administrative       $1,712,069

                                                                        Unallocated33               $880

                                                                        Total              $21,400,860
Source: LCLE




      33
           LCLE plans to pass through the unallocated $880 as a sub-award.

                                               54 

                                                                        APPENDIX V 


                SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS:                                             AMOUNT             PAGE

Unsupported other direct costs                                     6,972             10



TOTAL QUESTIONED COSTS:                                          $6,972              10


TOTAL DOLLAR-RELATED FINDINGS                                    $6,972              10


Questioned Costs are expenditures that did not comply with legal, regulatory, or
contractual requirements, are not supported by adequate documentation at the time of the
audit, and were unnecessary or unreasonable. Questioned costs may be remedied
by offset, waiver, recovery of funds, or the provision of supporting documentation.




                                          55 

                                                                                                                          APPENDIX VI

        LOUISIANA COMMISSION ON LAW ENFORCEMENT’S
               RESPONSE TO THE DRAFT REPORT




   BOIIII Y J INUA I.
      <,0\ I-R'\,\lR


                                             ~tiltl'
                                                             .,
                                                             of JLoui£>iana
                                                                                                              JOfIY \'(I , soN
                                                                                                            I";"
                                                                                                                         n
                                                                                                                .U nVf nIMH'TOR




                                                 Office or Ih e Governor
                               1.01ll~1Il1Hl ~ Oll1t1ll$ $ ion           on l[aUJ <enforcrm r nt
                                   tlnb    ~lllll t ltls' t rjl ltDII   or   ~l'IlJ1illn [   J111£:1I (('



            August 0<), 2010


            u, S. Dcparl llll!llt of Justice
            Oi1ke' oC the Ins",""ctor General
            Attn: Mr. Ferris n.. Po lk
            Reg.ional Audit M~U1ag(' r / At l :'lIlt~ Regional Office
            75 . pring tt'Cl!l . Su it(, I J 30
            AllullUl, Georgin 30303


            RI',:: Sill" \';:-.il: tludit response ol'l hC' fo llo\\ ing. l:kpanment of Justi ce' grams awarded to Ihe
            Lou isi:lIl:'1 Conllllission 0 11 Ul\\ Enforcement (I .CLE)_

            2008- I>J -BX-0026          I:dwurd l3ym c 1\'1cmoriul Assistancl' Grant
            2008 - DJ-IlX-075 1         .l:.d\~ ard l3~mc Memorial Assistance Grum
            :!OO')·Sl -139·0023         Edwa rd Byrm: Memorial Assisl;mec G rant- Reeo\ ny Act



            RC'com m('ndali on:

                  1.     OJP sho uld ellsure thm the LC'LF remedies the $6.972 in questioned costS fo r
                         U I \~lIpportcd   cxpcndi lu n:s.

            Res poose:

                              Edwurd 13)nle Memorial Juslicc i\ sSisHlIlCC Gram Program
                                   1 Dral\ Audit Rc-port dalt..-d Ju ly 26. 2010, Pagl! 10 & 11
                         R ~s p(}llse
                                    0
                                               Other Direct COSIS.

            l.o uisi:IIl<l Commission on L'I\\ l;nJorcenH.'11I (LCLE) has mkcll SI\.'ps to either support
            l.juC'sliom..-d c:-.: r enSl!s and/or<:orrl!cti\'(' action to reso lve Findings nnd Re-conum::ndations
            in Ol hcr Dire!.:1COS1S or' the Gm nl Expcnd ilU res section of Ihe DmH Aud it Report. pugcs
            ten and ('kvell.




IBB5 \'\'...,.,ddalc BinI.. Room 1.2 30 • B;\ton Ruugc, l..uuislan3 701:106-15$5 • (225) 925-+11 8 • F2" (225) 925 -1998
                                              ,\n R qU,I) Oppm nlOi ry Emplo} er




                                                                         56 

                                                                                            Page ~ of 10


In respunse to the repor!" s statemen I. "We idcllIificd $6.972 in questioned costs for
unsupported expenditures in 3 of 55 transact ions fm lll Grant 2008-DJ-BX -0026.''
LCL E oiTers the fo llowing resl)Ollscs;:

808-7-001 Unsuppo rted Amo unt S4,'195

Total costS churged by the sub n:cipient 011 Expenditure Report #3 for January I through
~'I "rc h 31. 2009 \las S 18.206 (S 13.654 Feu«al ShaI<I$4.552 Match 5hal\:). Support ing
doculllentat ion submjtted for those expenditures totaled S20.42J, which is over the
ex penditure amount. 'I'he actual amount of unsupported costs is 52.75&.

Aller the discrepancy \vas noted. the sub recipit:nt    WHS not ilied . Receipts totali ng $71 9
lUI tho period olTcbrua r) 10. 2009 1hrotlgh March 16.200Q \I ere overlooked by the sub
n.'('ipil'lIt in compiling the information to subm it for review. Thl'Y hnv...-: been submitted
and ar{' attached,

The sub rccipicllI submitted SLlb grant Adjustrl1cnt Request Numbcr One (# I ) to ex tcnd
thl.! projt!C t for two month s. thert:by ending it on M3Y 3 1. 2009. ApprovaJ orl hc
ex tension t: nubl cd the sub recipien l to properl y util ize the amount o f the di sallowed co~ts
(52.0)<.) durin g the extended project period. A co py orthe adjustmen t appro\ul and Ci ty
of Grctna' s rece ipts lor c.\sh disbursements during the ex tended period are attached.
Receipts n)r cash disbursl!lllents ($2320) are 0 \ cr the amount of disallowed costs:
however. the O\'lT agt' is not charged t o the sub gmnt.

808-6-006       nsupported Amount 5402

 I he Suh recipien l was notified nf thc discrepnncy. rhe sub recipi ent reversed the c1m rges
frol11 the project and refunded the federa l share to LCLE. A COP) orlhe rt;viscd
t:x penLiit un: report and refund chcl:k (#- 1163 dated 71'17/ 10), and Sub grant Adj ustment # 1
reducti on not il..:t: is il tlacJ u:d.

B08-7-013 UnsuJlpurlcd Amount SI,,75

The- !!iub r~ ipi cnt provided pa~' stu bs: however. the)' were fo r the incorrect period.
Shortly heiorc I h~ iss u ::lnc~ (If the I)mll Audit Rl'fMlrt . I .l ' I ~ F. ohlain<.>d a printout of the
                                                                                      .
sub recipient' s Check lI istor) Inquiry and forwarded it to th e OIG. Lel.L: W..L" no til it>d it
\'a~ 001 acceptab le doculllentation (0 substantiate the chargl.!s. LCLE has obtuined Jnd
Elttached cQpies of the check stubs for the correct n.~ porting period (1:-; proof of paYlm.'IlI.

Pleas\:!' see attachment I for supporting dOC lIl1lCnt:l liol1 on LCLE's concl usio ns.

itceom rnend'llifln:

    2.       OlP ~hl}u lu ensure Ihat the Le t t:: properly appro\'es eligible sole source
             prO\·jdcrs tiS req uesLed b) ~ u b recipien t:-.




                                                57 

                                                                                               Page 3 nf 10




Iles ilonse:

                  Ed"ard Bymt: Memorial .J ustic(,' Ass i ~ l~IIlL'C Gram Pro 'ntln
               Response 10 Drali Aud il Repon daled July 26. 2010. Palle 14 & 15
                                    Management o f Funds

Louisia na Commission on Law Eniorcemcilt (LCLC) doC'S concu r with the
rccolll ll1end:lIi on ortht: Oflice.! of In:-'I1\:Clor Gcm:: ra!. Aud it n ivision Ih:u I ,CI ,E's in t cm~1 1
~ I t: SOllfc.:C prUl:cdufl-S wc.:I"C 1I0t flJ l1 o\\ ~d in the case of um.' suh f('C'ipient under the
RccO\e ry Act grant requesting sale source appro\:11 tor two sole SOU providers. The   Tce
two sale source agreements \\ cn.' repol1cd in the dratl audit for S 68.855. LC LE's rl!view
found this nmount to be tb(' total of sub awurd und the amount of t h ~ SOil' source fl'qUl:st
10 b<. $ 51.656.


LCLE's so le source process requires:

Proc urement unde r $ 100.000                 1.C I.E Program Manage r with Adv isory
                                              Board Approval and Commission Approval.
                                              (Ad\'isory Board to pr('sent recommcndm ion as pan
                                              of till' I{cpon 10 Ihl' Commi :i:::iion).

P rOCllI'cm CIH   S 1oo.oon and 0\ cr          l.e1.F.. ta fTrc\'ic\\ (three JI1emi1er p.tnd cOnllx1scd
                                              ol' th" Program Manager. Section Ht:<IIJ ano u ll,,;
                                              oIJlI..'r): leLE Priuritk's Commi ttC'C ~pprO\ al:
                                              Advisory Hoard Approval1111d Full Commission
                                              Appro\a l subject to {I sp ~ciric vote,

Upon recommendations fi nd conversations wi th the audit sta tl'ofthc Inspector General.
LCLC has chosen to lake a more- conser. mive approac h in approving ~ Ie source req uests
li)r Ihe Rt:X:llvery g mnl. All sole.! SUllrct! r~tlllcsi s lor the Rccowry grant IUlist obtain
approval from LCL E regardless o t'a mount and fo llo\\ Ihe Illore conscrvali\,c
procurcnK'nt rcque-st o l'a mounts over 100.000. Also upon recollllllc ndulioll orlh ·
Inspl!C to r G\.·neral. so le source req \l ~st s arc time-stamped when all required
dOC1I1l1Cl1H1lit>n ha s been rcceh ed.


Reco mm end ation:

    3,         OJP sho uld ensure that the LCLE stuff n..-cci\'t;s t r~lillj n g to complcte thorough
               and occural e mon ito ring repo rts,

Re. pu use:




                                                    58 

                                                                                               Page oJ of 10



                   Edwurcl Byrne Memorial Just ice A s~ i stancC' Grant Program
               R~<;lx)nsc 10Draft Audil Rt!porl dated July 26. 20 I O. Pag~ 15 - 17
                     Monitorir'g - Thorough and l\ ccu rO I ~ Monitor Kepons


Lo uisi anu Cum mi ssion on L;IW Enforcement (Le l .E) does I,;Olltur wilh Ihl..'
n,.' co mm~ndnlio n
                 and oilers the following. response.

Fo rmul .. G nmts:

On nOIl-AKR;\ s ub recipient monitoring . I.C LE r ro\" i d~ ... Ir<l ining and h..-chnical
a s~ i sl a nl,; l! lu its t:m plo}t:t:S hireLiIO co nduct lllH:; ile monituring vis its to s ub recipients of
Federal-funded prograJlls. The cmployce rccc iycs gcneral in lo rmution on the progmm. its
requirement s. s lich eligibil ity. purpose areas. expendi ture rcpon s. progress reports.
progrnm incollll'. Federal representativcs contact info rmation. l'tc . The Section
SU   {>Cl'\ ism , along with tbe Pmgnllll Manugcr. cxpluins tht: fUllding process. rcvic\\s Ih..:
required fon us. such <IS stlb gWIll ndjustl1lcll1.S. rei mbursement req uests. with morc fOCus
o n Ihe quart erly progress rcpol1 s and mnnitoring reports. The employee is trai ned 011 the
pTtlpt.'r (:omp l ~tion of L s ub recipi~nl's rt-' qu irl'd qumlt:rly prllgn:ss 1't'IX.ln ..md how Iu
                                  hl'
complete Ihe monilUring ~po n before conductillg a mon itoring visit The Section
. 'lI pel'visor and/or the prof,!ram man:lger accompany the employee d urin g th e tra ininp
process 1 cnslIr(' 10 IhOI i h ~ cmpl ycc is able to cOllduCI and compl te III monilori ng
                0
report III its en tirety. Upon return fro m n s ite vi sit. the mon itor will repon his or her
lindings 10 the prognul1 manager ,mdJor li scal section ifther\.' areas Ihat need additional
mcrs ight.

Uast'd on tht.' RC("olnmcndalion #3, t e LE sta ll' will in(.'ludc that the program manager
signs olT on the monitor's n:port to ensure H       CCtmtcy and complck'ncss of the report.
lJased on th is re\"ie\\·, ;)ddilional lraining \\ iII b~ provided to the monitor i.md/or
snbl'ccc i pi em when ne eded or requested .

A RR A G ra n.:

LCl E upd::lIed ilS mo nitoring repo rti ng 1001 in and monitOri ng proced ure in March 20 10.
The IlC \\ proc..:dufe rl'qu ircs trai nin g for lIew mo nitors on Ihc lhmough compit:lion                 or
monitoring r<.'ports. citing "ddilional docutn"ntm ion for "no" and " n/a" responscs and thl:!
incl usion of pholOgraphs for all equipment ilems purchased with R("co\'cry Act i"und s. In
addition, the I.CLE hus im:orporatco un aud it ~ompliun cc f(,'vjcw uddcndulll in to the
monitoring process lor utililation in co njunction" il h Ihe sHlndard monitoring fonn . Th~
addend um assists in ident ifYing risk and C\ 31uat ing Ihe com plcli nn s l at u~ o f a granl hased
011 funds Spt'll t Hnd gram pt.'riod remaining. TI1(' new process has been designcd 10 (I ll ure
sub recipient projec ts are carril.'t.l out in II manJ1I,,'r cons istent wi lh (he releva nt statutes.
regulalions. policies and f,!u idel ill{'S o f lh!!' progr;\lu.




                                                    59 

                                                                                              Pugc 5 ot 10




RCt.'nmmcnd:ltion:

    4.        OlP sho uld ensure that the LC LE's progra m and tiscal staff coordin~\te lbt:i r
              duties 1 en sure adcqu!.ltc cO\'cragc ofmol1lloring r~vic \\ s .md audits,
                      0




H.espons(':

                    Ed\\ ard Dyrm:: Mt:OlOrial Juslice Assistance Gnm1 Prog.rnm
               Rt.'Spor'!\c:: to Dra n Amlil R ~port lblCrl Jul y 26. 20 I0, Page 1(j & 17
                                      Monitoring R\."\'iL"\\ s and Audi ts


Louisinllll Commission on l.a\\ c nforcl!mclll (I.C['E) docs concur with the
r~c oll1 ll1clldati on
                and o ilers the 1'0110\\ ing response.

Formulli enlots:

a ll non-ARRA sub rec ipie nt monitoring. th..: monitor advises the fisca l stafrthm a
mon itoring vis it wi ll be ("onductcd and rcqu(,',sts any i ss u~ s thai may need 1 be addressed.
                                                                                        0
') he monitor Will bring blunk fo rms (expenditure report. su b grunt adj ustment rcq u...·st.
qlli:1 Tlc rl~ pT()g rc~ r~p(.)n. cquipm..:nt invtl1 lory. elc.) to pruvid(' 10 the sub rel:ipit:nt for
th eir lISC .

Basc:d on the Recom mendmion #-J. dialogue bt:t\\'cen the program and fiscal/audit staff
\dll cOlHinue 1 cns ufl.! adcqml1 e coordinat io n or CO\ cragc o j' monitori ng reviews nnd
               0
aud its.



R,lscd un LCLE"s 'lII;.tI )'s i ~ of Iht: drc.l fl <tlu.l h rI.."poTl. only the mo nitoring reports contained
incompletc inl()rmltion and e rrors. I .C I ~ E agrees thn t the unans\\e red questions in lite
monitori ng rc POI1S could lead to gram goals and objec tivcs nOI bei ng mct. Fiscal and
audit personne l met to review nnd rC\'isc the monitoring loml bDSCd on recom mendations
and site visi t conversations with sta ll' from [ns pec tor Ucncral's Utlice. The Audi t
Addendulll \\3S added to the fOITn 10 35Sist in slalT l:oord ination b~' eval uat ing aud it ri sk
and he lp ing 10 C\ a lnal": the g ram ll S 10 percentage ur l:Ompld ioll i ll dullitTS re1 al ~cJ III gran t
Ik'riod rt.'main ing.




                                                    60 

                                                                                                     Pag" 6 of 10


As a result o f th..is proc('ss, til(" ARRA monitor wi ll ady i!'l c the fi scal!audit stair that a
moni lorinll visit \\illl)(,' conduL't..'<.I   ~nu.l   n:qut'st fillY issues that may need   III   hI: addrc!\scd
to ensure ;dcqumc coordination of coverage ofm ~nilOring rt:v it:\\ s and audits.


Rel'o llll1lcnd;t ti rm:

     5.        OJP sho uld ensure that the I.C I.F. comp letes separate llnnllal progress reports
               for a ll .r AG awards.




                     Ed\\ ard B )'m L' Memurial Just ice Assistance Grant Program
                Response [0 Draft Audit Repon daled July 16. ~010 ,               Pa~1:   19 & 20
                                         Annua l Progress Reports

Louisiana Commi ssion on Law l:.:nforcclllcnt (LCLE) docs concur wi th the
recommen dation nnd otfers the foIlO\'\'ing fesponse.


LCLE agrees \dth Recommendation #5 and \, iIl I!IBurc that the annual progress rcpons
for 311 JAG ;.l\\ards will be submiued indi\'idually by Fedel1l1 AW:lrd ye~ r ,md in
com pliance \\·i th the required reporting timcli n(\


I{ ~culllllu.· nd at iOIl :


     6.        OJ P sho uld enSll re that thl.:' LCLE d.;vd ops U 1nt!lhod to v.;rify a s<'lmple of the
               quarterl y progress reports to support ing documelll3tion submitted by s ub
               rec ipients.

Res ponse:

                   Edward Ryrne Memorial Justice Assistance Grant Program
                Respon se to Draii Audit Report dated .l ui } 26.2010. Page 19 - 24
                     Annual "'rogress Reports and ARRA Progress Reports

Louis iana C{)l11mission on Ltw c n foTn:nu:nt (LCLE) does COlll'Ur with thl.:.'
               uion alld olTe r~ the followin g rcs pnn5C.
n::collllll cndc


Fo rm ula GI'a nls:

On the nOIl-AR RA sub rec ipient qUa!1c rly progress report. LCLE requires the sub
ll::cipicllt to suhmit their pcrfo nnance measurements di rectl), 10 RJ A ' s PMT S) Slem . The




                                                           61 

                                                                                            Page 7 of 10


su h recipiellt is required to print their PM'!" report and attach it to LCLC 's q uart..:rly
progress report . Pri or tn a monituring \ ish. the monitor reviews the quart",l: progress
reports on fi le. During the visit. the 1110niIOr is .. bIe to veri fy Ihe ;h'::(,;Ufal'Y orl ht:
infom1alio ll reported in the quarte rly progress report.

A Rlt A Gra nt :

The LC I.E slIbm incd its September 2009 :lnll llul rl!port timt.·l y on No\t~m~r 17.2009.
Whcn completing thc section 1512 report tor grnnt number 2009-SU-U9-0023, Ihe LCLE
will calcul ate Job tOlnls hy using the thllowi ng Ibrmula: ~J olul number tlf hours w{lrkl·d
and funded by Rt.'Co\ery Act \\-ithin reporting quarlt.: l'. divided by Ihe quarterly hours in a
full time: !idll.:"duk as (Iutlincd in OMB Mc morandum 10 ·08. datcd Decc mber 18.2009.
The l.CLE wi ll mail1i:lin records of supponing doc umcnts lor cach s ub reci pient's FTE
e.alcu!alioll .


It L't: omml' nd~lion :


    7.        OJP should   I!l1sure   that the LCLE is a Ie (0 identify the performance dma
              s ubmiucd in the I'ertonnance \1nnagt!I1lcllI S~ s tem by cal:h sub r~cipic1ll (0
              a ll ow the I.CLE :') Inllto trace the data to suppon ing documentation.




Res ponst':

                   Edward Byrne Memorial .I ustice- /\ ssistnncc Gram r'rogram
               RL~Jlnnse10 Omft Aud it I~C p1 1l1 dated J ul~ 26, 20 I O. PHge 2 1 - 24
                                Pcrlunnance Mdrics Tool Rqxlrts


Louisiana COI11 !lli!ision on Law Enlorccml'nt (LC LE) dOt.'s concur wit h th<:
rccommcnd:lI ioll and otTers the lollm\ing reSp(HlSl:.


Formula GnID's;

On the no n-ARRA sub rcc ipient quarterl)        rrogrcs.~   rcpon. J.C I. E retp lin'<;; the 81th
rccipielll to subm it their perfonmlllct:' measurements dirt'Ctty to BlA's PMT Systt:m. The
Sllb rc::dpicnl is required to pri nllheir PM r repon and attach it to LCLE ' s quanerly
progress repo rt. Prior 10 a monitoring \ isi!. the monitor rt'\'iews the quarterly progress
repons on fl le. Duri ng the \·isit. thi! mon itor is able 10 verify the l.Iccurac) uf the
infOlmati on reponed in Ihe quan erl) progress reporl.

A RRA    era""




                                                   62 

                                                                                                            PlIgc 8; uf 10


LCLE wi ll coordinate with Pc rtorm::mcc Measurement Too l Help Desk (PMT) pe rson nel
10 receive further guidance and training on how to retrieve d~ltil su blllilt~d into thl!
I·crfi)nmmcc .\1casurcmc nt Tool syslem by sub recipient. }Jtvn Help Ut.-sk persolUlcl hayc
in formed UTE that the PMT system does Ilol currently have a mcchanism to rdri...:\'c
data in this manner as it was designed to g,enerarc compiled reports.


RCl'ommendllt ion;

      8.      O.lP s ho uld ensure thai the LC I.E submi ts the Rccovcry ,\ ct rcpolts with
              supported.    eonsi~ t c nt.   and complete (b in Ii.) r all suh recipients.


Res punst":

                  Ed ward Byrne Memorial Just ice: Assistall ce Gnml Program
               Response to I..)mfi Audit Rl;'porl d:'llcd Ju l) 26. 20 10. Page 21 - 24
                          PMT nnd Qunnerly Re<.:uvery l\\.:t Report s

Louisiana Commission on Law Enti)rCemenl                            (LeLE)                docs    concu r        wit h       the
recommendation and offers the following response.

 L(,LF will coorc1inah:: wil h and provide technic:.1             a~:-:; i !'. l:.n cl:   traini ng rnr   ~ lI h r(:'C i r ie n l ~
 [0  ('nsure data bcit,£ rcpol1('d from sub rccip i cn t ~ to LCI.E has sllppo ned. consi stent and
 com plete data. The LCLE wi ll continuc it s process of prov iding electronic tmi n ing and
 tt~<.:h n h: a l support ("'orH.'spolldence to sub rec ipienls each report ing quarter a n section
 1512 and Perfo nnance Mei.\ s u~m cnt Too l rt:porl in g. r~gllI;:1 1 io ns.




RCl'omml'nd:ltion :

      9.      OJ !' should ensure that the LCLE idcllIili cd data basel ine data 10 mcasure
              program perfonuancc for each open JAG award.


H.cs ponse:

                  I-:dward 11Yl11c Memorial Justice Assistance Gra nt Program
              R t:spu lI ~t: to
                             Draft Audi l Repon dated July 26, 20 1O. P,Jg~ 24 - 2S
                      Baseline D.lta for Program Perronn~lIlce )'1":,l"iUrcment


Louisbna Comm iss ion on Law Enforcemcnt (I.C) .E) does concur with the
recomm endation and oners the lollowing rc SrXHlSC.




                                                        63 

                                                                                            Pag~ C)   uf 10




Formula Grant<ii:

On non-ARJli\ sub n.-dpil."n ls. LCLE ugrc::t"~ \\ilh Ret:ullullt:mlaliulI fl C) il l1 r1 rC\ ised it"
13) me/JAG sub recipient applk'l1io n that require.; s uh rec ip ients to pro vide c lIrrcn t \ alid
l o c~l l data to support the identified specilic needs/problems. This intonnalion is the basis
o r th~ goals and objectiv\"!s and is lIsed as the ir baseli ne, Achievements o r lhe goal s and
ubjectives ure rdl cctcd in the q uarterly progress reports_which allows the sub reci p ient
and LC LE staff to track the progress of the proj cet. Detc lln ination or continued tlllldmg
within the purp.."')~e areas is based on the success o f achievi ng thl: goal!i and objtc tive!i,
C ha nges in the s tated priority areas \~ i l l be ,tdj us,1ed as nc:eded in the Slat e' s nex t runciing
al1plical il lll

A RRA Cra nt:

The LCLE will reS l ruc t u r~ its internal procCSi'>cs. ill add ition to. work ing collailol'3ttvel y
with l:UA nnd the PM I Help I)esk to identify baseli ne data to m ~asu rc projec t
performance lor each o pen ARRA .lag award.


Rl'4.'O rnml'nd ation :

    10,      OJP sho uld ens ure that the LCLE obtains written Iettcrs as required with plans
             for initiation or expl:muti on for deb )' from all JAG sub recipients w hen thei r
             progrum s me not o~ru ti u ll u l within 60 and 90 duys o flhe origi nul start dute of
             th e awnrd period ,

Response:

                 Edwi'm l Ryr11t! Memori<ti Juslil:c "ssi1)t<jI\ ~:t: Gralll Prugr<l lll
              Respollse to Draft Aud it Report dated July 26. 20 10, Page 27 & 28
                         Program Pe rfonllancc and Accom plishments


          Lu uis iana Commission un Lm v Lnfon.·cll1i..'nt ( LC LE) docs concur with the
              recommendation with exception < offe rs {hI:: fo ll owing rc.::iponsc,
                                              !flU



Formula Grants:

Onnon· A RRA     sub grants, LCLE funds new projec t s~ however_ the majority o r lhe
projects arc con ti nuation projects th:l1 arc operationa l at the t ime of the ir next application.




                                                   64 

                                                                                           Page 100 rlO

Timing of the Federal award to th~ slate. the tim ing of respec ti ve program's Hoard
mectings thr consideration and approval. and issuance orIhe award dOClIl1lCI1I to the
rec ipient sometimes place the project more than 60 days past the SIal1 dale. Thi s shou ld
f1u t be i..:onsl rucJ as Ihl;" projC(.' t bdng non-opt'rationaL Bt'cause of thcsc reasons. a
delayed 3\\ard acc~p l<lI1CC does not negate the sub grant rcpon ing responsibi lity. LeLE
allows pre-award costs fro m I h~ sian d<It~ . Whcn the award is issued (md accepted by the
sub recipient. the sub recipien t submits their financ i<11 und programmatic reports \'~ri f)'i n g
thnt the project was operational at the start dote.

I.CI F. II "'-!S the s ub grant ttdjustment as a fonn al wri ul::l1 nUlilil:aliull or Jday wi th sl::Irt up
alld   ~U III ~li lll e.."   will   r~'qucSL   a iaLtT SUUl dale.

ARRA Gr:tnt:

All but a fe" ARM projc~ t s me now opermional. !-- or rema inin g Elnd new pmjccl!'.
L(, I.F will request 60 and 90 day letters <l~ appr(')priate.

I ,(' I.E lise:) the sub gnlOt aJjuslmcnt as a fonnal wriucn notification o r delay with stan up
Lin d someTimes wi ll req uest a Imer st an date.




Sincerd y.




Jame ~ R. Fr;:mkJin
Accountant Administrntor


A ll nt: hm en l.<;




                                                                65 

                                                                                    APPENDIX VII

                  OFFICE OF JUSTICE PROGRAMS'
                 RESPONSE TO THE DRAFT REPORT

                                                  u.s. Department of Justice
                                                  Office ofJustice Programs

                                                 Office ofAudit, Assessment, and Management



                                                 Washington, D.C. 20531




 AUG 13 2010
MEMORANDUM TO:               Ferris B. Polk
                             Regional Audit Manager
                             Office of the Inspector General
                             Atlanta Regional Audit Office

FROM:
                             ~::~~; Henneb7L1(?6:f?~
                                       A.

SUBJECT:                     Response to the Dra4udit ieport, Office ofJustice Programs,
                             Edward Byrne Memorial Justice Assistance Grant Program,
                             Grants Awarded to the Louisiana Commission on Law Enforcement,
                             Baton Rouge, Louisiana,

This memorandum is in response to your correspondence, dated July 26, 2010, transmitting the
subject draft audit report for the Louisiana Commission on Law Enforcement (LCLE). We
consider the subject report resolved and request written acceptance of this action from your
office.

The report contains 10 recommendations and $6,972 in questioned costs. The following is the
Office of Justice Programs' (OJP) analysis of the draft audit report recommendations. For ease
of review, the draft audit report recommendations are restated in bold and are followed by the
OJP's response.

1. 	   OJP should ensure that the LCLE remedies the $6,972 in questioned costs for
       unsupported expenditures.

       We agree with the recommendation. We will coordinate with the LCLE to remedy the
       $6,972 in questioned costs for unsupported expenditures charged to grant number
       2008-DJ-BX-0026.

2. 	   OJP should ensure that the LCLE properly approves eligible sole source providers
       as requested by subrecipients.

       We agree with the recommendation. We will coordinate with the LCLE to obtain a copy
       of implemented procedures to ensure that LCLE properly approves eligible sole source
       providers as requested by subrecipients.




                                              66 

3.   OJP should ensure that the LCLE staff receives training to complete thorough and
     accurate monitoring reports.

     We agree with the recommendation. We will coordinate with the LeLE to obtain
     documentation that the LeLE staff receives training to complete thorough and accurate
     monitoring reports.

4.   OJP should ensure that the LCLE's program and fiscal staff coordinate their duties
     to ensure adequate coverage of monitoring reviews and audits.

     We agree with the recommendation. We will coordinate with the LeLE to obtain a copy
     of implemented procedures to ensure that progress reports are timely and accurately
     completed for JAG awards.

5.   OJP should ensure that the LCLE completes separate annual progress reports for
     all JAG awards.

     We agree with the recommendation. We will coordinate with the LeLE to obtain a copy
     of implemented procedures to ensure that progress reports are accurately completed and
     timely submitted for all JAG awards.

6.   OJP should ensure that the LCLE develops a method to verify a sample of the
     quarterly progress reports to supporting documentation submitted by subrecipients.

     We agree with the recommendation. We will coordinate with the LeLE to obtain a copy
     of implemented procedures to ensure that LeLE develops a method to verify a sample of
     the quarterly progress reports to supporting documentation submitted by subrecipients.

7.   OJP should ensure that the LCLE is able to identify the performance data
     submitted in the Performance Management Tool by each subrecipient to allow the
     LCLE staff to trace the data to supporting documentation.

     We agree with the recommendation. We will coordinate with the LeLE to obtain a copy
     of implemented procedures to ensure that they are able to identify the performance data
     submitted in the Performance Management System by each subrecipient, to allow the
     LeLE staff to trace the data to supporting documentation.

8.   OJP should ensure that the LCLE submits the Recovery Act reports with
     supported, consistent, and complete data for all sub recipients.

     We agree with the recommendation. We will coordinate with the LeLE to obtain a copy
     of implemented procedures to ensure that they submit the Recovery Act reports with
     supported, consistent, and complete data for all subrecipients.




                                            2




                                            67 

9.     OJP should ensure that the LCLE identified data baseline data to measure program
       performance for each open JAG award.

       We agree with the recommendation. We will coordinate with the LCLE to obtain a copy
       of implemented procedures to ensure that they identify baseline data to measure program
       performance for each open JAG award.

10.    OJP should ensure that the LCLE obtains written letters as required with plans for
       initiation or explanation for delay from all JAG subrecipients when their programs
       are not operational within 60 and 90 days of the original start date of the award
       period.

       We agree with the recommendation. We will coordinate with the LCLE to obtain a copy
       of implemented procedures to ensure that they obtain written letters as required, with
       plans for initiation or explanation for delay, from all JAG subrecipients when their
       programs are not operational within 60 and 90 days of the original start date of the award
       period.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Amanda LoCicero
       Budget Analyst
       Bureau of Justice Assistance

       Tamaro White
       Program Manager
       Bureau of Justice Assistance

       Richard P. Theis
       Assistant Director
       Audit Liaison Group
       Justice Management Division

       OJP Executive Secretariat
       Control Number 20101587




                                               3




                                               68 

                                                             APPENDIX VIII

                  OFFICE OF THE INSPECTOR GENERAL 

                 ANALYSIS AND SUMMARY OF ACTIONS 

                    NECESSARY TO CLOSE REPORT 


       The Office of the Inspector General (OIG) provided a draft of this audit
report to the Louisiana Commission on Law Enforcement (LCLE) and Office of
Justice Programs (OJP). The LCLE’s response is incorporated in Appendix VI,
and OJP’s response is incorporated in Appendix VII of this final report. The
LCLE provided extensive attachments that are not included in this report.
We made no changes to the report based on the LCLE’s response. However,
we did make minor technical edits to the report, including a change to the
criteria for listing the sub-award date required on the Quarterly Recovery Act
Report. The following provides the OIG analysis of the responses and
summary of actions necessary to close the report.

Analysis of the LCLE’s Response

      In response to our audit report, the LCLE concurred with
Recommendations 2, 3, 4, 5, 6, 8, and 9. The LCLE concurred with
Recommendation 7, but provided a plan of action for the quarterly progress
reports submitted by subrecipients in the Performance Management Tool
(PMT). Recommendation 7 pertains to subrecipients’ quarterly progress
reports developed by the LCLE for use in preparing the OJP-required annual
progress report. The LCLE did not fully concur with Recommendations 1 and
10. We provide the following reply to the exception statements by the LCLE
for Recommendations 1 and 10 before discussing the LCLE’s specific
responses to each of our recommendations and the actions necessary to
close those recommendations.

       For Recommendation 1, the LCLE did not fully agree with the amount
of one subrecipient’s questioned costs. We identified $4,995 in unsupported
costs for subrecipient B08-7-001 and the LCLE said the unsupported costs
should total $2,758 for this subrecipient. The LCLE provided additional
documentation to support the expenditures, but the documentation was not
sufficient for us to adjust the questioned costs because to properly assess
the documentation we need additional information regarding all funds drawn
down by the subrecipient over the life of the grant. In the discussion below
for Recommendation 1, we provided additional detail on the support needed
for these costs.

       For Recommendation 10, we understand the LCLE’s response to say
that it agrees with our recommendation for any newly-funded projects but

                                      69 

believes that existing procedures are sufficient for any projects being funded
for continuation. We believe the existing procedures are not sufficient
because the procedures do not provide assurance that the continuation
projects are in fact continuing to operate. The delays in subrecipient use of
newly-awarded funding leaves the distinct impression that some programs
may not be operating.

Analysis of OJP’s Response

       In its response to the draft audit report, OJP stated that it agreed with
all of our recommendations and will coordinate with the LCLE to remedy the
questioned costs and obtain copies of documentation needed to close other
recommendations.

Summary of Actions Necessary to Close Report

1.	   Resolved. The LCLE concurred with exception to our recommendation
      that OJP remedy $6,972 in questioned costs for unsupported
      expenditures by subrecipients. OJP concurred with our recommendation
      and said that it would coordinate with the LCLE to remedy the
      questioned costs. We questioned $4,995 for subrecipient B08-7-001,
      $402 for subrecipient B08-6-006, and $1,575 for subrecipient
      B08-7-013.

      Regarding subrecipient B08-7-001, the LCLE provided additional
      documentation supporting expenditures from April 2008 through May
      2009. The LCLE stated that, based on its assessment of the
      documentation, the appropriate amount of questioned costs should be
      $2,758. To fully assess the sufficiency of the support, we need to
      obtain and review all of the subrecipient’s drawdowns of grant funds
      over the life of the sub-award. This is necessary because we are unable
      to determine if whether the newly-supported expenditures had been
      paid under a previous reimbursement request.

      Regarding subrecipients B08-6-006 and B08-7-013, with its response to
      the draft report the LCLE provided additional documentation sufficient to
      support the questioned costs. We consider $1,977 of the questioned
      costs to now be supported and that portion of this recommendation is
      closed.

      This recommendation can be closed when we receive and review
      documentation to support the drawdowns for the entire subgrant award
      under grant number 2008-DJ-BX-0026 to subrecipient B08-7-001.


                                       70 

2.	   Resolved. The LCLE concurred with our recommendation to properly
      approve eligible sole source providers as requested by subrecipients.
      The LCLE stated all sole source requests for the Recovery Act grant
      (2009-SU-B9-0023) will require approval from LCLE regardless of the
      amount and follow the more conservative procurement request for
      amounts over $100,000. The LCLE will also time-stamp all required
      documents for the sole source requests. OJP concurred with our
      recommendation and stated it will coordinate with the LCLE to obtain a
      copy of implemented procedures to ensure that the LCLE properly
      approves eligible sole source providers as requested by subrecipients.
      This recommendation can be closed when we receive and review
      documentation to support that the LCLE properly approves sole source
      recipients requested by subrecipients.

3.	   Resolved. The LCLE concurred with our recommendation to provide
      LCLE staff with additional training to ensure monitoring reports are
      thoroughly completed and contain accurate information. The LCLE
      stated that training and technical assistance is provided to its employees
      hired to conduct on-site monitoring visits of subrecipients. The LCLE
      program manager will also sign off on the monitoring reports to ensure
      accuracy and completeness of the reports. OJP concurred with our
      recommendation and stated that it will coordinate with the LCLE to
      obtain documentation that supports LCLE staff are receiving training to
      complete thorough and accurate monitoring reports. This
      recommendation can be closed when we receive and review evidence
      that the additional training is conducted and monitoring report errors
      are minimized.

4.	   Resolved. The LCLE concurred with our recommendation to ensure
      that the LCLE’s program staff and fiscal staff coordinate their duties to
      ensure adequate coverage of monitoring reviews and audits. The LCLE
      stated the program staff completing the monitoring visit will advise
      fiscal staff of the scheduled visit and report any issues that may need to
      be addressed. The monitoring form was also revised to assist in staff
      coordination by evaluating audit risk and to evaluate the grant based on
      the percentage of completion in dollar amount compared to the grant
      period remaining. OJP concurred with our recommendation and stated
      that it will coordinate with the LCLE to obtain a copy of the newly
      implemented procedures to ensure the coordination of duties between
      the program and fiscal staff and the adequate coverage of monitoring
      reviews and audits. This recommendation can be closed when we
      receive and review documentation that supports the coordination
      between the program staff and fiscal staff regarding the adequate
      coverage of duties for monitoring reviews and audits.

                                       71 

5.	   Resolved. The LCLE concurred with our recommendation to complete
      separate annual progress reports for all JAG awards. The LCLE stated it
      will ensure that the annual progress reports for all JAG awards will be
      submitted individually by Federal Award year and in compliance with the
      required reporting timeline. OJP concurred with our recommendation
      and stated that it will coordinate with the LCLE to obtain a copy of
      implemented procedures to ensure that progress reports are accurately
      completed and timely submitted for all JAG awards. This
      recommendation can be closed when we receive and review
      documentation to support that the LCLE has implemented procedures to
      ensure accurately completed and timely submitted annual progress
      reports for each JAG award.

6.	   Resolved. The LCLE concurred with our recommendation to develop a
      method to verify a sample of the quarterly progress reports to
      supporting documentation submitted by subrecipients. However, the
      LCLE described actions it plans to implement regarding the quarterly
      reports submitted by the subrecipients in the PMT. This
      recommendation is in reference to our finding on page 20 and footnote
      16 of this report. The LCLE uses these self-developed quarterly
      progress reports to prepare the OJP-required annual progress report.
      OJP concurred with our recommendation and stated that it will
      coordinate with the LCLE to obtain a copy of implemented procedures to
      ensure that LCLE develops a method to verify a sample of the quarterly
      progress reports to supporting documentation submitted by
      subrecipients. This recommendation can be closed when we receive and
      review documents to support that the LCLE has implemented
      procedures to verify a sample of the LCLE-developed quarterly progress
      reports to supporting documentation submitted by subrecipients. This is
      to ensure the OJP-required annual progress reports are accurate.

7.	   Resolved. The LCLE concurred with our recommendation that OJP
      ensures the LCLE is able to identify the performance data submitted in
      the PMT by each subrecipient to allow the LCLE staff to trace the data to
      supporting documentation. For the non-Recovery Act formula JAG
      awards, the LCLE did not state a plan of action. The LCLE stated it
      requires the subrecipients to print their individual PMT reports for the
      LCLE monitor to review and verify those printed reports. For the
      Recovery Act JAG award, the LCLE stated it will coordinate with the PMT
      Help Desk personnel to receive further guidance and training on how to
      retrieve data submitted into the PMT by subrecipients. However, the
      LCLE also stated the PMT Help Desk personnel has informed the LCLE
      that the PMT system does not currently have a mechanism to retrieve

                                       72 

      data in this manner as it was designed to generate compiled reports.
      OJP concurred with our recommendation and stated it will coordinate
      with the LCLE to obtain a copy of implemented procedures to ensure
      that they are able to identify the performance data submitted in the PMT
      by each subrecipient to allow the LCLE staff to trace the data to
      supporting documentation. This recommendation can be closed when
      we receive and review documentation to support that the LCLE has
      implemented procedures to identify the performance data submitted in
      the PMT by each subrecipient to allow the LCLE staff to trace the data to
      supporting documentation

8.	   Resolved. The LCLE concurred with our recommendation to submit the
      Recovery Act reports with supported, consistent, and complete data for
      all subrecipients. The LCLE stated it will coordinate with and provide
      technical assistance training for subrecipients to ensure data being
      reported from subrecipients to the LCLE is supported, consistent, and
      complete data. The LCLE also stated it will continue to provide
      electronic training and technical support correspondence to
      subrecipients each reporting quarter on section 1512 and PMT reporting
      regulations. OJP concurred with our recommendation and stated it will
      coordinate with the LCLE to obtain a copy of implemented procedures to
      ensure that the LCLE submit the Recovery Act reports with supported,
      consistent, and complete data for all subrecipients. This
      recommendation can be closed when we receive and review
      documentation to support that the LCLE has implemented procedures to
      submit the Recovery Act reports with supported, consistent, and
      complete data for all subrecipients.

9.	   Resolved. The LCLE concurred with our recommendation to identify
      baseline data to measure program performance for each open JAG
      award. For the non-Recovery Act formula JAG awards, the LCLE stated
      it revised its subrecipient application and requires subrecipients to
      provide current valid local data to support the identified specific needs
      and problems. The LCLE also stated that: (1) determination of
      continued funding within the purpose areas is based on the success of
      achieving the goals and objectives, and (2) changes in the stated
      priority areas will be adjusted as needed in the state’s next funding
      application. For the Recovery Act JAG award, the LCLE stated it will
      restructure its internal processes and work collaboratively with BJA and
      the PMT Help Desk to identify baseline data to measure project
      performance for each open Recovery Act JAG award. OJP concurred
      with our recommendation and stated it will coordinate with the LCLE to
      obtain a copy of implemented procedures to ensure that the LCLE
      identifies baseline data to measure program performance for each open

                                       73 

    JAG award. This recommendation can be closed when we receive and
    review documentation to support that the LCLE has identified baseline
    data to measure program performance for each open JAG award.

10.	 Resolved. The LCLE concurred with exception to our recommendation
     to obtain written letters as required with plans for initiation or
     explanation for delay from all JAG subrecipients when their programs
     are not operational within 60 and 90 days of the original start date of
     the award period. We addressed LCLE’s exception statement regarding
     the formula JAG award above in the “Analysis of LCLE’s Response”
     section. For the Recovery Act JAG award, the LCLE stated that all but a
     few of the subaward projects are now operational. The LCLE also stated
     that: (1) for remaining and new projects, it will request 60 and 90 days
     letters as appropriate; and (2) it uses the subgrant adjustment as a
     formal written notification of delay with start up and sometimes will
     request a later start date. OJP concurred with our recommendation and
     stated it will coordinate with the LCLE to obtain a copy of implemented
     procedures to ensure that the LCLE will obtain written letters as
     required. This recommendation can be closed when we receive and
     review documentation to support: (1) the programs are operational for
     the 51 subrecipients we identified in Appendix IV of this report; (2) the
     LCLE obtained a written letter as required from all applicable JAG
     subrecipients if their programs are not operational within 60 and 90
     days; and (3) the LCLE actions taken to cancel, redistribute, or extend
     the sub-award funds.




                                     74 

